<html>
<title> - PREVENTION OF AND RESPONSE TO THE ARRIVAL OF A DIRTY BOMB AT A U.S. PORT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







  PREVENTION OF AND RESPONSE TO THE ARRIVAL OF A DIRTY BOMB AT A U.S. 
                                  PORT

=======================================================================

                                (114-30)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 27, 2015

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-310 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






















             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
TOM RICE, South Carolina             RICHARD M. NOLAN, Minnesota
MARK MEADOWS, North Carolina         ANN KIRKPATRICK, Arizona
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
ROB WOODALL, Georgia                 LOIS FRANKEL, Florida
TODD ROKITA, Indiana                 CHERI BUSTOS, Illinois
JOHN KATKO, New York                 JARED HUFFMAN, California
BRIAN BABIN, Texas                   JULIA BROWNLEY, California
CRESENT HARDY, Nevada
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                  DUNCAN HUNTER, California, Chairman
DON YOUNG, Alaska                    JOHN GARAMENDI, California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
BOB GIBBS, Ohio                      CORRINE BROWN, Florida
MARK SANFORD, South Carolina         JANICE HAHN, California
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
CARLOS CURBELO, Florida              JULIA BROWNLEY, California
DAVID ROUZER, North Carolina         PETER A. DeFAZIO, Oregon (Ex 
LEE M. ZELDIN, New York                  Officio)
BILL SHUSTER, Pennsylvania (Ex 
    Officio)
    
    
    
    
    
    
    
    
    
    
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                                Panel 1

Rear Admiral Peter J. Brown, Assistant Commandant for Response 
  Policy, U.S. Coast Guard.......................................     4
Huban A. Gowadia, Ph.D., Director, Domestic Nuclear Detection 
  Office, U.S. Department of Homeland Security...................     4
Todd C. Owen, Assistant Commissioner, Office of Field Operations, 
  U.S. Customs and Border Protection.............................     4
David C. Maurer, Director, Homeland Security and Justice, U.S. 
  Government Accountability Office...............................     4

                                Panel 2

Gregory H. Canavan, Ph.D., Senior Fellow, Los Alamos National 
  Laboratories...................................................    32
Charles A. Potter, Ph.D., Distinguished Member of the Technical 
  Staff, Sandia National Laboratories............................    32
Joseph M. Lawless, Chairman, Security Committee, American 
  Association of Port Authorities................................    32
Stephen E. Flynn, Ph.D., Director, Center for Resilience Studies, 
  Northeastern University........................................    32

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Rear Admiral Peter J. Brown......................................    48
Huban A. Gowadia, Ph.D...........................................    53
Todd C. Owen.....................................................    58
David C. Maurer..................................................    65
Gregory H. Canavan, Ph.D.........................................    82
Charles A. Potter, Ph.D..........................................    91
Joseph M. Lawless................................................    98
Stephen E. Flynn, Ph.D...........................................   101

                       SUBMISSIONS FOR THE RECORD

Rear Admiral Peter J. Brown, Assistant Commandant for Response 
  Policy, U.S. Coast Guard, response to request for information 
  from Hon. Garret Graves, a Representative in Congress from the 
  State of Louisiana.............................................    26
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
  PREVENTION OF AND RESPONSE TO THE ARRIVAL OF A DIRTY BOMB AT A U.S. 
                                  PORT

                              ----------                              


                       TUESDAY, OCTOBER 27, 2015

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
room 2167, Rayburn House Office Building, Hon. Duncan Hunter 
(Chairman of the subcommittee) presiding.
    Mr. Hunter. Good morning. The subcommittee will come to 
order.
    Before I get into my statement, I want to indicate my 
displeasure at the lack of response from the Secretary of 
Homeland Security regarding a letter I sent on October 7th for 
this hearing asking for information related to today with what 
we are going to talk about.
    I specifically asked about the number of containers 
inspected prior to arrival at a U.S. port, the percentage 
inspected after arrival, the different inspection methods used 
and criteria used to determine increased or reduced screening. 
So basically I asked them: How many containers do you screen? 
How do you screen them? How do you scan them? You would think 
that the Department of Homeland Security would have those 
numbers in front of them because that is what they do.
    In addition, I asked about the Department's progress to 
meet the 100-percent container scanning requirement in the 9/11 
Commission Act of 2007 for containers headed to U.S. ports. The 
information requested is relevant to today's hearing, and the 
Department should have been able to provide a response within a 
3-week lead time, roughly the same amount of time taken to 
develop the testimony we will hear from Department witnesses 
today.
    Are any of you aware of the status of the Secretary's 
response to my letter I guess would be the first question.
    Mr. Owen. Yes, sir. I am aware that the letter has cleared 
the interagency with the departments within, and it is waiting 
for final approval at the Department level.
    Mr. Hunter. Of the numbers?
    Mr. Owen. I am aware of the numbers, sir. Yes, sir.
    Mr. Hunter. So you have the numbers?
    Mr. Owen. I have the numbers prepared for today, sir. Yes, 
sir.
    Mr. Hunter. Great. OK.
    And let me say one last thing, too. We are not going to 
hear from anybody from SOUTHCOM [U.S. Southern Command], and we 
are not going to hear from anybody from NORTHCOM [U.S. Northern 
Command], because the OSD, the Office of the Secretary of 
Defense, refused to send witnesses or briefers from either 
SOUTHCOM or NORTHCOM.
    I am not sure whether that was the Department of Defense 
saying this is a Department of Homeland Security issue and a 
Department of Homeland Security issue only or whether they just 
didn't care enough to send somebody. Maybe they have a beef 
with me. And I would say to OSD that that is pretty petulant, 
to not send anybody from any--besides the Coast Guard from the 
Department of Defense, from NORTHCOM or SOUTHCOM.
    The subcommittee is meeting today to discuss the scenario 
of a dirty bomb--a radiological dispersal device--in a U.S. 
port; the potential for how such a device could be brought in; 
measures that can be taken to deter, detect, and interdict the 
security threat; and ways to prevent an adversary from reaching 
its intended target within the U.S.
    The United States has an exclusive economic zone spanning 
3.5 million square miles, 95,000 miles of open shoreline, over 
360 ports, and numerous small harbors across the country. Our 
maritime border is unique compared to our land or air borders 
due to its sheer size and the potential ease of moving large 
quantities of materials undetected.
    Interdiction efforts are about more than the seized 
contraband. Understanding the pathways used by smugglers is a 
critical part of the process. Pathways used for drugs today 
could be used to bring in anything--nuclear, radiological 
material, or anything. If you can carry thousands of pounds of 
something, you can carry thousands of pounds of something else. 
Knowledge of existing smuggling practices coupled with trends 
on how actions change due to law enforcement efforts can assist 
in disrupting future smuggling efforts.
    After 9/11, security measures were enacted to better 
protect our homeland by expanding efforts to detect and deter 
threats overseas. It is obviously much better to find things if 
they are not on U.S. shorelines. These efforts include 
screening cargo manifests before containers are loaded onto a 
U.S.-bound ship, scanning shipping containers that have been 
determined to be high-risk, screening ship personnel data, 
knowing where a ship and its cargo have been before entering 
United States territory, and intercepting a vessel at sea and 
preventing its entry into a U.S. port.
    We will hear from our witnesses today on how the Federal 
Government deploys a whole-of-government, layered approach, 
including law enforcement, technology, and intelligence, to 
detect, deter, and interdict potential threats.
    These internal measures are combined with treaties and 
agreements with foreign governments to conduct cooperative 
enforcement efforts at ports overseas.
    In early October, the Associated Press reported on the FBI 
[Federal Bureau of Investigation] and Eastern European 
authorities' efforts over the last 5 years to successfully 
interrupt four attempts by criminal gangs with suspected 
Russian ties to sell cesium to Middle Eastern extremists. And 
we can talk about cesium either in this panel or the next 
panel. It is not the most dangerous stuff, but it is still bad 
stuff. The successful disruption of the sale was a positive 
result; however, the desire of our adversaries to obtain, at a 
minimum, materials for a dirty bomb or, to the extreme, 
materials for a nuclear weapon are growing.
    Due to the Iranian deal, no matter what you think about it 
one way or the other, and the reaction that the other Middle 
Eastern countries are going to have to Iran having nuclear 
facilities, there is going to be more nuclear material out on 
the market. That is just the way it is going to be going 
forward. Over the next 10 or 25 years, you are going to have 
more countries with more nuclear capability than we have 
probably ever seen in the world.
    And I think that is one of the reasons we are going to kind 
of start this series of hearings up, is because the 
interdiction efforts by the Coast Guard and Department of 
Homeland Security are going to be paramount. I mean, that is 
the only line of defense, not just the first line of defense, 
that we have in this country.
    It is concerning that the administration's whole-of-
government approach does not appear to include foreign nuclear 
policy. For an administration that proclaims to be anti-
nuclear-proliferation, we are heading down a path where our 
adversaries will have greater access to nuclear material. While 
this hearing is about preventing, deterring, and interdicting 
threats from coming onto our ports, it is important to be aware 
of how our foreign policies may conflict and potentially 
disrupt enforcement measures to keep our country safe.
    With that, I yield to Ranking Member Garamendi.
    Mr. Garamendi. Mr. Chairman, thank you very much for the 
hearing.
    When you first noticed the hearing, I am going, ``Wait a 
minute, I have been here, I have done this. What is--when did 
it occur?'' About 2005, we did a national meeting on natural 
disaster insurance. Including among the three things that we 
looked at in 2005 was, let's see: Hurricane up the east coast--
that would be Sandy; earthquakes at the New Madrid fault, but 
that hasn't happened, thankfully; and terrorism, a dirty bomb 
at the Port of Long Beach. So there is a study out there. I 
really wanted to get it in time for this, but I wasn't able to 
gather it.
    In any case, this is a subject that we need to pay 
attention to, and I thank you for holding the hearing.
    The threat of a nuclear or radiological dirty bomb arriving 
at a U.S. port is sobering. It certainly was in 2005 when we 
did that national review of disaster insurance. An idea that 
was virtually unimaginable 15 years ago--well, not quite 10 
years ago--is now the primary focus of coordination, 
multilayering strategy involving multiple Federal agencies, 
including the U.S. Coast Guard.
    By most accounts, it would appear that the Global Nuclear 
Detection Architecture and numerous Federal programs, 
activities, capabilities that are implemented to fulfill this 
strategy seem to be meeting the challenge of keeping 
radiological or other nuclear threats outside of the U.S. 
homeland. This is something we ought to be grateful for, and I 
certainly appreciate that because of the effort made by 
thousands of Federal employees every day to protect us.
    And yet we cannot let our guard down, for even the 
likelihood of a terrorist cell smuggling weapons of mass 
destruction into the country in a shipping container may be low 
but the consequences would be catastrophic. At least, that is 
what we learned in 2005. And because the risks are potentially 
catastrophic, we must continue to do everything possible to 
make sure it doesn't happen.
    Among the questions we are going to be asking, or, at 
least, I will be asking--I assume you will also, Mr. Chairman 
and Members: Are we adequately testing and validating our 
technologies and procedures and training to make sure that they 
remain relevant given the current and emerging threats and 
circumstances?
    Second, in the event of a detonation of a dirty bomb at a 
U.S. port, are we making sure today that we will have in place 
the technologies and capabilities to quickly and effectively 
respond to the cleanup and recovery of such an attack? I know 
on the insurance side the answer in 2005 was ``no,'' and today 
I am sure it is also ``no.''
    And, thirdly, considering that a future terrorist may be 
homegrown, are we doing everything we can to track and monitor 
within the U.S. the coastwide trade to make sure that vessels 
operating in U.S. domestic waters are not a potential conduit 
for those seeking to do us great harm?
    It is going to be an interesting hearing. Thank you for the 
panels. I thank the witnesses who are here. And looking forward 
to the testimony.
    Thank you.
    Mr. Hunter. I thank the ranking member.
    I am going to introduce everybody really quick.
    Rear Admiral Peter J. Brown, the U.S. Coast Guard's 
Assistant Commandant for Response Policy. Thanks for being 
here.
    Dr. Gowadia--did I get it right?--the Department of 
Homeland Security's Director for the Domestic Nuclear Detection 
Office.
    Mr. Todd Owen, the Department of Homeland Security's 
Assistant Commissioner for the Office of Field Operations for 
U.S. Customs and Border Protection. Thanks for being here.
    And Mr. David Maurer, the U.S. GAO [Government 
Accountability Office] Director of Homeland Security and 
Justice.
    And we will start with you, Admiral Brown. You are 
recognized.

TESTIMONY OF REAR ADMIRAL PETER J. BROWN, ASSISTANT COMMANDANT 
FOR RESPONSE POLICY, U.S. COAST GUARD; HUBAN A. GOWADIA, PH.D., 
DIRECTOR, DOMESTIC NUCLEAR DETECTION OFFICE, U.S. DEPARTMENT OF 
HOMELAND SECURITY; TODD C. OWEN, ASSISTANT COMMISSIONER, OFFICE 
 OF FIELD OPERATIONS, U.S. CUSTOMS AND BORDER PROTECTION; AND 
DAVID C. MAURER, DIRECTOR, HOMELAND SECURITY AND JUSTICE, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Admiral Brown. Well, thank you. And good morning, Chairman 
Hunter, Ranking Member Garamendi, and distinguished members of 
the subcommittee. I am honored to be here today to discuss the 
Coast Guard's role in the prevention and response to the 
arrival of a radiological dispersion device, or dirty bomb, 
into a U.S. port. And I thank you for your strong support of 
the Coast Guard and our men and women in uniform.
    It is a pleasure to be here today with two of our most 
important partners within the Department of Homeland Security: 
Customs and Border Protection and the Domestic Nuclear 
Detection Office. The Nation is safer in no small part due to 
the partnerships that we have with these two organizations. And 
I would like to personally thank both Dr. Gowadia and Assistant 
Commissioner Owen for their ongoing support and leadership.
    My complete statement has been provided to the 
subcommittee, and I ask that it be entered into the record.
    Mr. Chairman, through a layered security approach, the 
Coast Guard pushes border and port security out well beyond our 
Nation's shoreline and the exclusive economic zone by fostering 
strategic relationships with partner nations to detect, deter, 
and counter threats as early and as far from U.S. shore as 
possible in order to prevent an attack on the homeland.
    The Coast Guard's efforts to prevent dirty bombs from 
nearing the U.S. ports and shores begins overseas with robust 
international partnerships that provide access to maritime 
ports of origin. Through our International Port Security 
Program, the Coast Guard performs overseas port assessments to 
confirm that foreign trading partners meet international 
standards for security and antiterrorism. Since the inception 
of this program in 2004, Coast Guard personnel have visited 
more than 150 countries and approximately 1,200 port 
facilities.
    To more effectively counter these threats in the offshore 
region and throughout this hemisphere, the Coast Guard 
maintains more than 40 maritime bilateral law enforcement 
agreements and 11 bilateral Proliferation Security Initiative, 
or PSI, ship-boarding agreements, which allow Coast Guard teams 
to board vessels suspected of carrying illicit shipments of 
weapons of mass destruction, their delivery systems, or related 
materials far from shore.
    The Coast Guard's membership within the intelligence 
community provides global situational awareness, analysis, and 
interagency collaboration with various components, including 
the CIA [Central Intelligence Agency], National 
Counterterrorism Center, and the FBI, among others. Through our 
Maritime Transportation Security Act, we provide security plan 
compliance and inspections for maritime facilities and vessels, 
and this reduces the vulnerability to terrorist attacks in or 
involving our ports.
    Building on these preventive efforts, the Coast Guard also 
brings agility and mobility to our detection regime with the 
ability to deliver our detection capabilities anywhere in the 
maritime domain. The Coast Guard conducts over 400 routine 
vessel inspections, examinations, and law enforcement boardings 
every day. And Coast Guard personnel who visit boats, vessels, 
and regulated facilities carry detection devices to alert the 
users to the presence of radiation.
    In 2004, we developed a Maritime Radiation Detection 
Program and have since maintained a close relationship with 
DNDO [Domestic Nuclear Detection Office] to standardize our 
equipment and enhance our national capacity for detection with 
multiple levels of capability, including the ability to reach 
back to scientific experts for more information. We do this in 
conjunction with CBP [U.S. Customs and Border Protection] and 
with TSA's [Transportation Security Administration's] Visible 
Intermodal Prevention and Response, or VIPR, Program.
    Many of our units, including our Coast-wide sectors, our 
deployable specialized forces, and our major cutters, are 
equipped with these devices that can identify specific 
isotopes, distinguish between man-made and natural sources, 
and, as I said, reach back to interagency experts for 
assistance.
    Specifically, our Maritime Security Response Team, or MSRT, 
provides the Nation with a unique maritime capability for 
nuclear and radiological detection, identification, and self-
decontamination in routine or hostile situations. The MSRT is 
specifically designed and exercised to integrate with other 
interagency or DOD [Department of Defense] response forces.
    At the national level, together with CBP's National 
Targeting Center, the Coast Guard screens ships' crew and 
passenger information for all vessels that are required to 
submit what we call an ANOA, advance notice of arrival, 96 
hours or more prior to entering port. In 2014, that process 
screened over 124,000 notices of arrival and over 32 million 
crew and passenger records.
    The Coast Guard's response to a dirty-bomb threat would be 
part of a coordinated interagency effort to bring the most 
capable and appropriate resources to bear. If a dirty bomb is 
suspected en route to or identified within a U.S. port, the 
interagency Maritime Operational Threat Response protocol, or 
MOTR, would be employed to coordinate whole-of-government 
interagency action to achieve the best solution.
    And, with that, sir, thank you.
    Mr. Hunter. Thanks, Admiral Brown.
    Doctor?
    Ms. Gowadia. Good morning, Chairman Hunter, Ranking Member 
DeFazio, and Ranking Member Garamendi, and distinguished 
members of the subcommittee. Thank you for the invitation to 
testify with my colleagues from the Department of Homeland 
Security and the Government Accountability Office on our 
efforts to prevent and respond to the introduction of a dirty 
bomb into a maritime port.
    An attack with a radiological dispersal device--that is, a 
dirty bomb--at a U.S. port would have profound and prolonged 
impacts to our Nation and the world. At the Domestic Nuclear 
Detection Office, or DNDO, we have a singular focus: preventing 
nuclear terrorism. It cannot be accomplished by any one agency, 
and, in fact, it takes a whole-of-enterprise approach. And so 
DNDO was deliberately established as an interagency office and 
benefits from the support of detailees from across the Federal 
Government.
    In both our nuclear detection and forensics missions, we 
work closely with our Federal, State, local, and international 
partners and those in the national laboratories, in industry, 
and in academia. My testimony today focuses on DNDO's work to 
strengthen the operational readiness of our maritime partners 
to detect illicit radioactive material.
    DNDO is responsible for the domestic implementation of the 
Global Nuclear Detection Architecture. The GNDA is a framework 
for detecting, analyzing, and reporting on nuclear and other 
radioactive materials that are out of regulatory control.
    Now, the tendency can be to place great focus on technology 
alone. It is, however, more effective to carefully integrate 
intelligence, law enforcement, and technical capabilities to 
improve the GNDA.
    Indeed, our GAO colleague, Director Maurer, captured it 
well in a previous hearing, stating, ``Detection technology is 
an important part of the overall effort to keep a nuclear 
device out of the U.S., but it is not the only one. Consider 
this,'' he said. ``If the U.S. ever has to rely on a radiation 
portal monitor to stop a smuggled nuclear device, a lot of 
other things have already gone wrong. It means law enforcement 
missed it, the intelligence community missed it, our allies 
missed it, risk-based screening missed it, treaty regimes did 
not work, and nonproliferation programs failed.''
    Keeping his words in mind, our strategy is to provide 
effective technologies to well-trained law enforcement and 
public safety professionals as they conduct intelligence-driven 
operations. By implementing a multilayered, multifaceted, 
defense-in-depth approach, it is our objective to make nuclear 
terrorism a prohibitively difficult undertaking for the 
adversary.
    And so our efforts to secure the homeland begin overseas, 
relying largely on sovereign foreign partners to develop and 
enhance their own national detection programs. In this 
endeavor, DNDO works closely with the interagency and 
multilateral partners to develop and share guidance, best 
practices, and training. The collective efforts abroad help 
ensure illicit radioactive material or devices can be 
interdicted before they arrive at our shores.
    The layered approach continues at our borders. DNDO 
procures radiation-detection systems for use by DHS [Department 
of Homeland Security] operational components at our ports of 
entry, along our land and maritime borders, and within the 
United States. Today, all Coast Guard boarding teams are 
equipped with detection devices. DNDO has also acquired 
detection systems for the Coast Guard and Customs and Border 
Protection to scan small vessels before they reach our shores. 
And at our seaports of entry, CBP scans nearly 100 percent of 
all incoming maritime containerized cargo for radiological and 
nuclear threats.
    Building operational capacity across the Federal, State, 
and local enterprise is also critical. And so DNDO is presently 
working with 33 of the Coast Guard's Area Maritime Security 
Committees, sharing information and intelligence, assisting 
with alarm adjudication, and providing technical support to our 
operational partners as they build their detection programs.
    In case of an attack of nuclear terrorism or the 
interdiction of a nuclear radiological threat, leadership will 
need rapid, accurate attribution based on sound scientific 
evidence. Nuclear forensics, when coupled with intelligence and 
law enforcement information, supports those determinations. 
DNDO, therefore, advances technologies to perform forensic 
analyses on predetonation nuclear and other radioactive 
materials.
    Make no mistake: The United States remains committed to 
holding fully accountable any State, terrorist group, or other 
nonstate actor that supports or enables terrorist efforts to 
obtain or use weapons of mass destruction. At DNDO, we will 
continue to work with our partners to counter nuclear terrorism 
and improve our overall collaboration across the technical, 
intelligence, and law enforcement communities.
    We sincerely appreciate the committee's support of our 
efforts to secure our homeland. Thank you for the opportunity 
to be here today. I look forward to your questions.
    Mr. Hunter. Thank you, Doctor.
    Our next witness is Mr. Todd Owen, the Department of 
Homeland Security's Assistant Commissioner for the Office of 
Field Operations for U.S. Customs and Border Protection.
    Mr. Owen, you are recognized.
    Mr. Owen. Good morning. Chairman Hunter, Ranking Member 
Garamendi, esteemed members of the subcommittee, thank you for 
the opportunity to testify today on the role of U.S. Customs 
and Border Protection in preventing and responding to the 
threat of a radiological weapon at our ports of entry, an 
important responsibility we share with our partners here today.
    As the lead DHS agency for border security, CBP works 
closely with our domestic and international partners to protect 
the Nation from a variety of dynamic threats, including those 
posed by containerized cargo arriving at our air, land, and 
seaports.
    Before my appointment as the Assistant Commissioner of 
CBP's Office of Field Operations earlier this year, I served as 
the Director of Field Operations for the Los Angeles-Long Beach 
Seaport, and I have also served time as the Executive Director 
responsible for all of CBP's cargo security programs. I know 
firsthand how complex cargo security operations are and how 
valuable our programs and partnerships are to our national 
security.
    Since the September 11 terrorist attacks, CBP has 
established security partnerships, enhanced our targeting and 
risk assessment programs, and invested in advanced technology--
all essential elements of our multilayered approach to 
protecting the Nation from the arrival of dangerous materials, 
such as a dirty bomb, at our ports of entry.
    CBP has several key programs that enhance our ability to 
assess cargo for risk, examine high-risk shipments at the 
earliest possible point, and increase the security of the 
supply chain. I would like to highlight just a few of these 
efforts for you today.
    Since 2002, CBP has been receiving advance information on 
every cargo shipment, every vessel, every crewman before they 
arrive at our ports of entry. For maritime containerized cargo, 
this information is received 24 hours prior to lading the cargo 
in the foreign seaport.
    This advance information is then run through CBP's 
Automated Targeting System, which will compare the data against 
multiple law enforcement and trade databases. Those shipments 
identified as high-risk will be selected for examination.
    High-risk shipments may be examined overseas before being 
laden onto the vessel heading for the United States as part of 
CBP's Container Security Initiative. CBP's CSI program places 
U.S. officers in 60 foreign seaports in 35 countries around the 
world. These overseas CBP officers have the ability to reach 80 
percent of the maritime cargo heading to the United States. All 
overseas examinations are performed with the assistance of our 
host-country counterparts.
    Every cargo inspection conducted overseas includes a 
scanning of the container for radiation, as well as subjecting 
the shipment to a nonintrusive inspection. A nonintrusive 
inspection uses systems of high-energy x ray or gamma ray to 
look into the container for anomalies which may be of concern. 
In fiscal year 2015, CBP performed over 124,000 overseas 
examinations of high-risk cargo before the cargo was placed on 
a vessel destined to the United States.
    If the exam is not performed overseas at a CSI seaport, the 
shipment will be inspected upon arrival at a U.S. port of 
entry. At the U.S. ports of entry, CBP also deploys the same 
large-scale, nonintrusive inspection systems to quickly examine 
containerized cargo for the presence of anomalies which may 
indicate a threat. Those containers found with anomalies in 
their cargo are physically searched at warehouses located in 
the seaports.
    Lastly, every containerized shipment leaving a U.S. 
seaport, every single shipment, is scanned for radiation and 
has been since 2010. There are over 1,280 radiation-detection 
portal monitors deployed at our U.S. border crossings, allowing 
for nearly 100 percent radiation screening of----
    Mr. Hunter. Mr. Owen, you just said that 100 percent of 
cargo leaving U.S. ports?
    Mr. Owen. Leaving U.S. ports, yes, sir.
    Mr. Hunter. ``Leaving'' is correct?
    Mr. Owen. Yes, sir, 100 percent.
    So the 1,280 radiation portal monitors allow us to scan 
nearly 100 percent of the arriving seat containers, trucks, and 
passenger vehicles arriving from Canada and Mexico, as well 
shipments in the mail and aircargo environments. So most 
Americans are unaware of this critically important security 
measure in place at U.S. ports of entry throughout the country.
    CBP's detection technology, targeting capabilities, and 
partnerships are strategically aligned to prevent the arrival 
of a dangerous weapon like a dirty bomb at a U.S. port. 
However, if such an event were to occur, CBP has established 
contingency plans and standard processes to ensure a 
coordinated and effective response. In the event CBP detects or 
suspects radiological material, all personnel are trained in 
``secure, isolate, and notify'' protocols. The suspect cargo is 
secured, the immediate area is isolated, and scientific experts 
are notified. CBP scientists at the CBP Teleforensic Center in 
northern Virginia will confer with the Department of Energy 
and, when necessary, refer the findings to the FBI to 
coordinate an appropriate response.
    Thank you for the opportunity to testify today, and I am 
here to answer your questions.
    Mr. Hunter. Thank you very much.
    And our last witness is Mr. David Maurer, again, the U.S. 
GAO's Director of Homeland Security and Justice.
    Mr. Maurer, you are recognized.
    Mr. Maurer. Good morning, Chairman Hunter, Ranking Member 
DeFazio, Ranking Member Garamendi, and other Members and staff. 
I am pleased to be here today to discuss DHS's efforts to 
prevent a dirty-bomb attack on a U.S. port.
    Preventing the smuggling of a nuclear or radiological 
device into the U.S. is understandably and deservedly a top 
national priority. And, as we have heard from the other 
witnesses, there are a wide array of programs and activities at 
several Federal agencies to help address and mitigate this 
threat. Mr. Chairman, my statement today focuses on one key 
aspect of this much larger effort: DHS's covert operations to 
assess its capabilities to detect and interdict the smuggling 
of nuclear materials into the U.S.
    Over the years, DHS has invested billions to develop, 
purchase, and deploy radiation-detection equipment on our 
Nation's borders, as well as equip and train DHS personnel on 
how to use this technology. DHS has invested substantially less 
on testing to see whether it is being properly used. For 
example, over a recent 5-year period, CBP spent $1 million for 
covert testing--and that is ``million'' with an ``m''--and that 
spending covered all types of covert testing, not just nuclear 
and radiological.
    Now, it is very important to give CBP credit. Through much 
of that period and up to the present day, they were only 
required to do a single covert test per year. CBP took it upon 
themselves to do more than that, roughly one or two dozen a 
year. While CBP did more than required, this resource 
investment meant that they could not test every port of entry.
    In its covert tests, undercover CBP officers tried to 
smuggle radiological materials through U.S. ports of entry. 
Basically, this is a real-world test of the equipment and the 
personnel using it. We found that CBP's testing provided 
limited assessment of its rad/nuc-detection capabilities. 
Specifically, the number of covert tests was not sufficient to 
make a generalizable assessment of all U.S. ports of entry. 
Over an 8-year period, CBP conducted covert tests at 86 of the 
655 locations where testing could have been done.
    In addition, CBP's decisions on which locations to test 
were not based on risk assessments. That meant its covert 
testing did not prioritize the most dangerous materials, most 
vulnerable locations, and most critical equipment. For example, 
31 percent of CBP's tests were done at fixed checkpoints within 
the U.S., not at ports of entry. We recommended that CBP use a 
risk-informed approach to help determine where to conduct its 
covert tests. CBP agreed and is in the process of doing just 
that.
    We also reviewed what CBP did with the results of its 
covert tests. Over a 5-year period, these tests found problems 
with officer noncompliance with policy, equipment failures, as 
well as officer error due to lack of training. The good news is 
that CBP followed up on systemic problems like these to ensure 
corrective actions were taken. However, they did not 
consistently track the status of actions to fix problems at 
individual locations. We recommended that they do so, and they 
have actions underway to do that.
    Mr. Chairman, in some respects, our findings on this 
program mirror some of the themes we have seen over the past 
several years. In general, the U.S. has made significant 
progress combating nuclear smuggling and enhancing the security 
of U.S. ports. In particular, we have made great strides since 
1998, when the U.S. began deploying radiation-detection 
equipment.
    At the same time, many of these programs could and should 
have been implemented better. Agencies sometimes failed to 
assess whether their programs were working as intended or did 
not fully integrate risk assessments into their planning. In 
some cases, agencies rushed to failure to deploy technologies 
before they were ready. Over the years, DHS and other agencies 
have implemented GAO recommendations to address these problems 
and, as a result, strengthened their programs.
    Looking ahead, Congress, DHS, and other agencies face some 
tough decisions. The multilayered Federal effort is complex, 
vital to our security, and certainly not inexpensive. As DHS 
and other agencies adapt to changing threats, upgrade or 
replace aging equipment, and enhance their capabilities, GAO 
will be there to provide Congress independent oversight of this 
critically important mission.
    Mr. Chairman, thank you for the opportunity to testify this 
morning. I look forward to your questions.
    Mr. Hunter. Thank you, Mr. Maurer.
    I am going to now recognize Members for questions, 
beginning with myself.
    So let's just stay on this. You are satisfied that CBP took 
into account what you guys found and that they are making 
corrective action?
    Mr. Maurer. Yes. They took the findings from our report 
from last year very seriously. They put together a team of 
folks within CBP to address those recommendations, and they 
have actions underway to fully address them. They are not all 
the way there yet. We are working with them on that. But they 
have taken actions.
    Mr. Hunter. Good. Thank you.
    Mr. Owen, let's start with the questions from my letter 
with the numbers. And what is the percentage of shipping 
containers inspected prior to arrival at a U.S. port?
    Mr. Owen. Yes, sir. Every container, again, is assessed for 
risk. The highest risk inspections occur overseas. In fiscal 
year 2015, 124,000 of those containers were inspected overseas. 
That is about 1 percent----
    Mr. Hunter. So what is that percentage?
    Mr. Owen [continuing]. A little over 1 percent of the 12 
million containers that arrive from foreign ports every year.
    Mr. Hunter. OK. But everything is analyzed----
    Mr. Owen. Everything is analyzed. Every shipment is----
    Mr. Hunter [continuing]. And screened, I guess you could 
say.
    Mr. Owen. Depending on how you define ``screening'' and 
``scanning.'' And there is confusion as to how those terms are 
used.
    We do look at the advance data we receive from the shipper, 
in terms of the manifest, as well as from the importer, in 
terms of our importer security filing. We compare all of that 
data to what we have in our databases in terms of our Automated 
Targeting System, the intelligence information that is 
provided. And, from those reviews, certain containers will rise 
to the top, causing us greater concern. Those highest risk 
containers are the ones we look at overseas.
    Mr. Hunter. So what happens when you look at a country like 
UAE [United Arab Emirates] that have--they scan everything.
    Mr. Owen. Yes.
    Mr. Hunter. They have those passive systems set up--by the 
way, those are made in San Diego.
    Mr. Owen. Right.
    Mr. Hunter. But, anyway, they have those passive systems 
set up, and they scan everything, right?
    Mr. Owen. Yes, that is correct. Many countries have now 
deployed radiation-scanning equipment similar to what we have 
in the United States, you know, in seaports around the world.
    The radiation scanning is very doable from a technology 
standpoint. The challenge becomes the x-ray imaging of the 
containers. Whether it is a high-energy, medium-energy, or low-
energy system, it still takes human intervention to analyze the 
result of that scan.
    So you have a radiation portal monitor that is a very 
effective passive system, will tell you if there is a source 
emanating from the container that is of concern. You then need 
to take a second step to have the x-ray technology see what is 
inside.
    That is really the part of the process that slows things 
down. Most countries in the world use a risk approach like we 
do and only inspect those highest containers of concern through 
x-ray systems.
    Mr. Hunter. OK.
    What percentage are inspected after they get here? So if 1 
percent total----
    Mr. Owen. A little over 1 percent overseas, yes, sir.
    Mr. Hunter. And then what percentage when it hits U.S. 
ports?
    Mr. Owen. Here in the maritime environment, it is about 2.7 
percent on top of the 1 percent. So we are looking at a 3.7-
percent overall in the maritime arena.
    Mr. Hunter. The next 2.6 or 2.7 percent is the next level 
down----
    Mr. Owen. Yes, sir.
    Mr. Hunter [continuing]. From the highest risk stuff?
    Mr. Owen. Yes. And then the next level down is what we will 
inspect here in the U.S. seaports.
    And, again, that is in the maritime environment. The rates 
are approximately 26 percent on the land border with Mexico. So 
we look at, obviously, a higher percentage of what is coming in 
from Mexico because of the narcotics threat.
    Mr. Hunter. And when you use the risk-based assessment on 
where you should do this at, are there any ports in particular? 
I mean, like Mr. Maurer said, when you were doing your own 
testing, you did not use your own risk-based approach on where 
you were going to do that testing at, right?
    Mr. Owen. Right.
    Two aspects of this. Number one is high-risk containers 
will be examined at whatever seaport they come into. A lot of 
that is dependent on the shipping patterns of what is arriving 
from what parts of the world, you know, into what parts of the 
country. So you will see those.
    The GAO's findings were specific to the testing that we do 
of ourselves and should we focus more on those ports that have 
a greater likelihood of finding that type of device as opposed 
to a more universal approach.
    So their findings, we felt, were very fair, and we have 
taken those into building a new risk matrix that will allow the 
operational testing at the ports that have the more likelihood 
of finding those types of containers. However, we will inspect 
high-risk containers wherever they enter the United States.
    Mr. Hunter. So let me just get this--because in 2007--was 
it 2007 was when you all passed the--I wasn't in Congress in 
2007--that said--2006--100 percent of cargo will be inspected, 
right?
    Mr. Owen. Yes. That is correct.
    Mr. Hunter. So what happened was everybody said, ``That is 
impossible. There is no way to do that.''
    Mr. Owen. Well, what happened was, from 2007 through 2010, 
we ran a series of six pilots around the world: in Qasim, 
Pakistan; Southampton, the U.K.; Salalah, Oman; Puerto Cortes, 
Honduras; a terminal in Busan, Korea; and a terminal in Hong 
Kong.
    From those 4-year pilots, we were able to identify and 
clearly document all sorts of challenges, from the technology, 
the logistical impact, the effect on the efficiencies of the 
throughput of the cargo, things down to weather that would 
impact the dependability of the machines. So, through our 4-
year pilots, we were able to identify and catalog all of the 
challenges that we have found.
    From that time, we didn't really move forward in pursuing 
that any further. Now, since then, the Department has reengaged 
on this issue and has committed to take a look at what can now 
be done, being 5 years from when these pilots last ended, in 
terms of the technology that is available, the relationship 
with host countries, an understanding of what technology, as 
you mentioned, in the UAE is now present at other locations.
    And, again, throughout all of these pilots what we have 
learned is it is not the radiation screening piece that is 
troublesome; it is the x raying of these containers. And, 
again, the 100-percent scanning law requires both aspects, 100 
percent scanning, 100 percent screening for radiation, and 100 
percent x ray of all of the containers. And that becomes the 
troublesome piece.
    Mr. Hunter. And just for everybody's benefit who is here, 
the next panel are a bunch of smart people from labs who can 
tell us what can be seen and what can't be seen, as far as they 
can go in a nonsecret hearing.
    That answers enough for now, Mr. Owen. Thank you.
    One last question for Admiral Brown. If something did 
happen--and this is, I guess, just a general homeland security 
type of question--but if something did happen, can the Coast 
Guard talk to everybody? I mean, can you communicate with the 
CBP and can you communicate with the sheriff and the ports and 
everybody all at the same time right now?
    Admiral Brown. Yes, sir. There are systems in place called 
Area Maritime Security Committees that bring together port 
stakeholders, governmental and nongovernmental, to plan for, 
prepare for, and, in the case of an actual event, respond and 
set up an incident command system network that responds to an 
incident, whether it is a dirty bomb or some other type of 
incident in a port.
    So at the tactical level, there are ongoing communications 
among all the port stakeholders. From unit to unit, vessel to 
vessel, patrol car to patrol car, there is no single 
communication system that integrates all of Federal, State, and 
local government, but----
    Mr. Hunter. So you are saying that there is not a 
communication system that integrates everybody?
    Admiral Brown. There is not a tactical radio system that 
communicates across all those entities--State, Federal, local, 
and industry. But there are coordination protocols and the 
incident command system that allows each agency to communicate 
with others and then to communicate to their own unit.
    Mr. Hunter. So satphone to satphone?
    Admiral Brown. So we use interagency operations centers, 
some of which are virtual, some of which are actual bricks-and-
mortar facilities, to coordinate those operations.
    And, again, in a significant incident, those entities would 
be brought together in an incident command structure so that 
the operational priorities for action would be taken, divvied 
up among the agencies. The agencies would go out and perform 
those, given the tasking to their individual tactical units.
    Mr. Hunter. OK. Thanks, Admiral.
    Thank you all.
    And, with that, I yield to the ranking member, Mr. 
Garamendi.
    Mr. Garamendi. Thank you very much, Mr. Chairman.
    I want to go into the budget and the availability of money. 
It looks like you have spent $2.4 billion on this overall 
project since 2013. Is that correct, Ms. Gowadia?
    Ms. Gowadia. I do not have the exact numbers at my 
fingertips, but across the enterprise that sounds about right 
for the Global Nuclear Detection Architecture.
    Mr. Garamendi. I will take that back. It is since 1995 to 
2013, $2.4 billion putting in place the technology.
    And the question for the three of you is: Is this a money 
issue--that is, not enough resources, not enough money to get 
the job done?
    Let's start with Admiral Brown.
    Admiral Brown. Sir, I would say that one of our challenges 
remains coordination. We have a great thing going now with 
DNDO, CBP, TSA. And, within our department, as we have 
implemented the unity-of-effort goals of the Secretary, one of 
the areas in which we are applying greater effort is to 
coordinate the acquisition, the technology, so that the 
physical devices that we are using and the doctrine and the 
tactics by which we use them are similar and coordinated across 
multiple agencies. And DNDO has the lead in that.
    Mr. Garamendi. So in your annual budget request to 
Congress, do you need more money or less money for this 
specific purpose?
    Admiral Brown. Sir, for this specific purpose, we run our 
requirements through the Department and through DNDO.
    Mr. Garamendi. OK.
    Ms. Gowadia. Good morning, and thank you for that question, 
sir.
    We at the Domestic Nuclear Detection Office are the 
strategic sourcing partners for this particular mission in the 
Department. What that means is we have the responsibility to 
bring in all the requirements from all the operational 
components, work with the Department's Joint Requirements 
Council, and allocate the right resources to meet the mission 
need.
    Very recently, we did something for the first time in the 
Department. We pulled together requirements from across the 
agency and made a single purchase, not just for the equipment 
itself, one particular unit, thereby standardizing the 
capability across the operational components, but also the 
maintenance contract. In the long run, this will save the 
Department a good bit of money. So that has helped, certainly.
    I would put in a slight plug for your efforts to pass our 
budget. The continuing resolution, sir, would put a significant 
clamp on our ability to support CBP, in particular, to replace 
some of the aging radiation portal monitors and support 
operations at high-volume ports.
    Mr. Garamendi. Ah, yes. Back to sequestration and 
continuing resolutions.
    Mr. Owen?
    Mr. Owen. Sir, and similar to the Coast Guard, we define 
our operational needs to the DNDO, who then will survey the 
technology that is available and procure those equipment on our 
behalf. So their funding purchases the equipment that we need 
in terms of rad/nuc detection.
    Mr. Garamendi. OK.
    Most of this has been dealing with dirty bombs. There is 
another whole aspect of this radiological material control that 
is over in the Department of Defense budget and the Department 
of Energy budget, having to do with the international 
transshipment and the effort to address that.
    I will note that in the House version of the NDAA [National 
Defense Authorization Act] we cut that budget, which would seem 
to be unwise. I understand that the recently vetoed bill 
increased it at the Senate level--perhaps still insufficient.
    I do note that we are spending some $30 million this year 
on an east coast missile defense system to protect us from an 
Iranian nuclear bomb. And that is a $3.5 billion investment, 
should it ever come to pass, and another $1.2 billion annual 
investment in missile defense systems.
    So the question for the three of you is: Are we more likely 
to see a missile incoming or a bomb in a tugboat or a fishing 
boat or in a container?
    Mr. Owen? A dirty bomb or otherwise bomb?
    Mr. Owen. I think the likelihood of a dirty bomb is 
mitigated by several factors. Beginning on the international 
arena, as you mentioned, the presence of radiological-detection 
equipment at ports of entry or border crossings throughout the 
world is much higher.
    There is also the logistics aspect of international 
shipping. If you actually have your hands on a dirty bomb, you 
turn it over to a truck driver, who is going to take it to the 
port. The port will turn it over to the terminal operator, who 
will turn it over to a carrier. The carrier will put it on the 
vessel. That vessel may move to other ports, where it is 
offloaded. You lose control of your asset. So I think the 
nature of that works against supporting the dirty bomb in that 
container.
    So there is much more detection than we have had in the 
past, and you would also, again, lose control of your asset for 
some time as it goes through the shipping channels. I think 
there are probably other scenarios where you retain control of 
that asset that may be more of a greater threat.
    Mr. Garamendi. For example?
    Mr. Owen. General aviation, small boats.
    Mr. Garamendi. Admiral? Small boats? General aviation?
    Admiral Brown. I would tend to agree with Mr. Owens' 
assessment, sir. I think the answer to your question probably 
would better come from the intelligence community, but I would 
say that, in addition to the dirty-bomb scenario in a container 
and the challenges associated with delivering one, that some of 
the other threats we would face would be from smaller boats. 
And whether they were radiological devices or other improvised 
explosive devices or small arms attacks, those are another area 
of port security that we take very seriously.
    Mr. Garamendi. I think most of this hearing is going to be 
focused on other than that, but it would be useful for us to 
focus on that. I know we have had some previous testimony in 
other hearings about that piece of it.
    My time has expired. I thank you very much, Mr. Chairman. I 
yield back.
    Mr. Hunter. I thank the ranking member.
    Mr. Gibbs is recognized.
    Mr. Gibbs. Thank you, Mr. Chairman.
    Thank you for the witnesses and all the work you do to 
protect this country.
    I guess, Mr. Owen, a year or so ago, some of us had the 
opportunity to visit the Shanghai port and Hong Kong port. And 
we saw at Shanghai, I guess, the radiation detectors, you know, 
the container semis coming through there. I think they were 
probably put in place in the early 2003 period after 9/11, 
correct?
    What is the status for monitoring their effectiveness, 
their wear and tear, and the lifespan? And then to replace 
them, is there a plan? Or if there is new and better 
technology, is there a plan for replacement?
    Mr. Owen. To the ports in Shanghai or to----
    Mr. Gibbs. Well, in general. I just saw that in Shanghai's, 
but----
    Mr. Owen. Right. We started deploying that equipment here 
with U.S. Customs and Border Protection in 2002. So it was 
right around that time that you would see this equipment 
deployed nationwide or around the world.
    We anticipated about a 10- to 15-year life cycle at that 
time. This technology was new. We didn't quite know what to 
expect. It has held up very well. It has been the workhorse of 
radiation detection in our seaports.
    They are now coming towards the end of that life cycle, so 
we do need to replace them. There is better technology, or the 
algorithms that support this technology have advanced from 
where we were in 2002.
    The original equipment, again, just speaking for Los 
Angeles-Long Beach, the equipment that was deployed would 
receive about 300 to 400 radiation alarms a day of the roughly 
13,000 containers that enter L.A.-Long Beach on a given day. 
Those were all nonthreat materials, naturally occurring 
radioactive materials, medical isotopes, those types of 
nonthreat. With the new algorithms that we now have within our 
radiation portal monitors, we have reduced that number to about 
35 to 50 alarms a day, so about an 86-percent reduction, by 
having science advance in the last decade and where the 
algorithms are in 2015 as opposed to where they were in 2002.
    Mr. Gibbs. So there is a plan in place to, you know, 
replace those, you know, just like the private sector does, a 
business----
    Mr. Owen. There is, like, a refresh of all the algorithms 
behind the radiation portal monitors here in the States that 
have been taking place for the past year and a half. I would 
assume globally that same type of activity is underway.
    Mr. Gibbs. I also wanted to ask you--I believe, if my 
memory serves me right, there is, like, a certified program of 
shippers, because, you know, stuff like--for example, coming 
out of China, there are a lot of containers coming out of 
China, obviously. And if you have shippers that you work with 
all the time, that are credible or go through certain 
procedures, you can certify----
    Mr. Owen. Right.
    Mr. Gibbs [continuing]. Those containers?
    Mr. Owen. There is the Customs-Trade Partnership Against 
Terrorism program that we work with not only vessels but as 
well as importers, manufacturers, truckers. They adopt higher 
security protocols, and, as part of that adoption, we go out 
and we validate that they have implemented what they said they 
would. We will treat them as lower risk than an unknown company 
or----
    Mr. Gibbs. So, in essence, you can segregate that 
somewhat----
    Mr. Owen. That is the intention of it, yes, sir, the higher 
risk from----
    Mr. Gibbs [continuing]. So you can be more effective.
    Mr. Owen [continuing]. And the unknowns from the unknowns. 
Yes, sir.
    Mr. Gibbs. I guess for the admiral: Once a specific pathway 
for smuggling is intercepted, how often is that used for 
interdiction? You know, when you find something, when you shut 
it down, does it open back up later on, the pathway?
    Admiral Brown. Transnational criminal organizations, sir, 
are very resilient. They react when we are successful, and so 
they will move the geography of their smuggling. They will 
sometimes change the conveyance and the timing in ways to try 
to thwart us. We combat that primarily with intelligence and 
intelligence-based operations so we can try to have our very 
limited offshore assets in the right places at the right time.
    I would say, though, that I started my career as a boarding 
officer in the Caribbean in the mid-1980s. And, just this week, 
we interdicted fishing vessels and go-fasts that are trying to 
get from South America toward Puerto Rico and the U.S. Virgin 
Islands. So criminal organizations, in my opinion, never 
completely give up on something that works for them, and so we 
continue to monitor those same threat pathways even 30 years 
later.
    Mr. Gibbs. It was just mentioned earlier, the real 
challenge is small aviation and small boats, you know, 
offshoring from somewhere else and getting through. I think, 
you know, that would be a real challenge. And I don't know how 
you handle that, but, you know, that has to be a real 
challenge.
    Did you want to say something, Doctor?
    Ms. Gowadia. When it comes to small or general aviation, I 
would mention that all incoming general aviation aircraft are 
met by our CBP officers using radiation detectors. So we have 
even increased in the last 10 years our capability in the 
general aviation environment, thanks in large part to their 
efforts.
    Mr. Gibbs. All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Hunter. I thank the gentleman.
    I guess, just dovetailing there, bad guys aren't going to 
send stuff on cargo ships; they are going to send stuff up the 
way that the bad guys are sending stuff up now, right? Which is 
small fast boats coming up from Central and South America. I 
mean, isn't that how they would get anything here? 
Semisubmersibles?
    Meaning, do you think we are putting too much priority on 
the shipping container portion, when the bad guy is sending all 
the drugs up in small boats to go-fasts that are hard to 
interdict, of which we only get--what was SOUTHCOM's number? 
Thirty-something percent total of the 100 percent that we know 
of coming up from South and Central America, right?
    Admiral Brown. That is a fairly accurate statistic, sir. We 
do interdict somewhere in the 15 to 20 to 30 percent, depending 
on how you measure and what we believe the flow rate to be of 
those drugs that are bound ultimately toward the United States.
    However, sir, those small vessels, semisubmersibles, almost 
never attempt to make landfall in the United States. The era of 
a go-fast vessel going from the Bahamas towards south Florida 
or a fishing vessel going from Colombia all the way to the 
Florida Keys are long over, sir. Most of the drugs that leave 
South America first make landfall somewhere in Central America 
and then take land pathways toward the border in much smaller 
packages, much more difficult to detect.
    So the success that we have using offshore aircraft, highly 
capable offshore cutters, that really takes the multiton loads 
out of circulation. And because of the success we have had over 
the past decades, we see very few drug-smuggling vessels 
actually arriving in the United States. Small amounts of 
marijuana landing in California, some relatively small amounts 
of cocaine and marijuana landing in Puerto Rico.
    So that particular pathway from South America toward the 
United States is not really a full maritime pathway. And so we 
don't see a significant threat of nuclear material along that 
pathway in the maritime. Certainly, it could be exploited. It 
would have to make landfall somewhere in Central America and 
then move on land pathways toward the U.S.
    Mr. Hunter. OK. I got you. Thank you.
    And we are honored today to have the ranking member of the 
full committee, Mr. DeFazio, who is recognized.
    Mr. DeFazio. Thanks, Mr. Chairman. Thanks for holding this. 
I served 8 years on the House Committee on Homeland Security, 
and a lot of these programs were very much a work in progress 
when I served there.
    GAO, have you audited the C-TPAT [Customs-Trade Partnership 
Against Terrorism] program lately? I mean, when I served a 
number of years ago, we found significant problems in the 
integrity of that program.
    Mr. Maurer. Yes, that is right. We looked at that program 
in roughly 2008. We have an ongoing review that just started 
just a month or two ago. So it is still underway, and we are 
very far from having our final findings, but we would be happy 
to come up and chat with you about what we are learning along 
the way.
    Mr. DeFazio. OK. Thank you. Because that was a major 
vulnerability previously.
    Now, Admiral, in terms of, you know, when you say that 
under the NOA [notice of arrival] you are going to have the 
registered owner of the vessel--real registered owner or a 
front?
    When I was in Malta discussing these issues when I was on 
the Committee on Homeland Security, they were like, ``No way we 
are going to give you the names of the people who own these 
ships because we will lose all of our business here.'' You 
know, that is what we provide. We provide cover.
    Has that changed? Are we getting the names of the real 
owners?
    Admiral Brown. Sir, we typically get corporate names and 
holding companies.
    Mr. DeFazio. Right, which are double-blind, triple-blind, 
lawyers' offices and--yes.
    Admiral Brown. Yes, sir. So what we scan against are the 
names of all of the ownership entities associated with the 
vessel, with the containers, and with the crewmembers and their 
hiring. So those are some of the areas that we look at to try 
to see beyond the individual names of the people on board or 
the company that is shipping a given container.
    But we try to look at all of the corporate entities and 
their history behind the vessel itself, its cargo, the ports 
that it has been in, and the crewmembers and the hiring 
practices, as well, because we see some characteristics of 
companies that are engaged in the hiring of mariners that may 
be more problematic that an individual mariner, himself or 
herself.
    Mr. DeFazio. OK. Thank you.
    Dr. Gowadia, you mentioned the radiological monitoring of 
all GA [general aviation] aircraft coming in. What are we doing 
in a maritime environment for ships or boats or even large 
pleasure craft that cross international borders into the U.S.?
    Ms. Gowadia. So, as I mentioned in my opening statement, 
sir, all Coast Guard boarding teams carry radiation sensors. So 
all the boardings that the admiral mentioned certainly include 
the radiation-detection element.
    We have also worked with our CBP and Coast Guard partners 
to give them some capability to detect the standoff ranges for 
small-vessel scanning. So whether they are scanning a marina 
for a 4th of July event or they have some basis or some reason 
to go up out at sea to look at a particular small vessel, they 
have now a capability not just that they can carry on their 
backs but in their boats as well.
    Mr. DeFazio. OK.
    Ms. Gowadia. The Coast Guard also asked us to look at 
detecting from above. So we have a very interesting research 
project where we are looking at the ability to equip Coast 
Guard's fixed-wing and rotary craft with detection systems so 
that they could scan out at sea from above, as well.
    Mr. DeFazio. Excellent. Very good.
    Admiral, on the AIS [Automatic Identification System], I 
mean, what about an exchange, a theoretical exchange, at sea? I 
mean, maybe the containers have been scanned, we know the risk, 
but a ship stops at sea and exchanges a container. I mean, 
theoretically, I guess if someone was watching every vehicle's 
AIS at every moment, you would know that, you know, perhaps 
these two ships came in very close proximity and there seemed 
to be no movement, but, I mean, we are not doing that.
    Admiral Brown. Right. And that type of rendezvous at sea, 
while it would be, I think, extraordinarily uncommon in a 
container ship environment, is a common thing we see in drug 
trafficking. And so we use a variety of systems, AIS being one 
of them, to try to detect if a vessel lingers somewhere for a 
longer period of time than expected or deviates from an 
economically viable route.
    So, using AIS systems and other national sensors that are 
available, I think we would be able to detect if a laden 
container ship deviated from its track or significantly delayed 
en route in a noneconomical way. And we would be able to then 
decide how to target that vessel either offshore or once it 
arrived in port for additional scrutiny.
    Mr. DeFazio. OK. All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Hunter. I thank the ranking member.
    Mr. Sanford is recognized.
    Mr. Sanford. I thank the chairman.
    A couple questions. One is, I notice that you had said that 
we monitor every container on the way out. Who cares? Why?
    Mr. Owen. We scan every container before it leaves the port 
of entry before it enters the commerce of the United States.
    Mr. Sanford. No, no. But you said in the reverse, on the 
way out of the country.
    Mr. Owen. No, on the way out of the seaport.
    Mr. Sanford. Out of the seaport.
    Mr. Owen. Out of the seaport.
    Mr. Sanford. On its way still in.
    Mr. Owen. No. The radiation portal monitors are positioned 
at the exit gates of the seaport before it gets on the roads 
and leaves the seaport environment.
    Ms. Gowadia. To enter the United States.
    Mr. Sanford. To enter the United States. So we are not 
monitoring on the way out. So I misunderstood that.
    Mr. Owen. You mean our exports?
    Mr. Sanford. Correct.
    Mr. Owen. No, we are not radiation screening exports.
    Mr. Sanford. Got it. OK.
    Mr. Owen. No, sir.
    Mr. Sanford. I guess in the post-9/11 environment, I 
wouldn't call it overreaction, it was, I mean, warranted 
reaction based on the tragedy that occurred on 9/11. But what 
we all know, whether from the civil liberties standpoint, from 
a variety of different standpoints, there was probably 
overreach in some cases because of operational things, were 
just flat out impossible to get to, and in other cases from a 
cost standpoint, they didn't prove that effective in deterring 
whatever it was that we were trying to deter in that particular 
sphere.
    And I guess, as I listen to this, my question would be 
along the same lines. I mean, if you look at the briefing 
material, it says with a dirty bomb there is really not enough 
radiation to kill people. You look at the logistical component 
in terms of the improbability of use in that somebody trying to 
do it that way would, as you put it, lose control of their 
bomb. You look at alternatives to sort of masking where one 
would come from in terms of rendezvous at sea or other things. 
It becomes a relatively low-probability vehicle, but we are 
spending a couple billion dollars a year, as I understand it, 
in the gestalt on these different programs.
    Is it overplay relative to the degree of risk that we are 
really confronting as a Nation in this particular sphere?
    Ms. Gowadia. Congressman, the way we calculate risk is we 
couple the likelihood with the consequences. And the 
consequence of a nuclear attack would be so catastrophic that 
we cannot afford to take our eye off this ball. We do need to 
remain vigilant, make sure that we have sufficient capabilities 
to detect and mitigate. This is the ultimate preventable 
catastrophe. We can't stop doing it.
    Mr. Sanford. But, again, let's back up just a second. I 
mean, we are looking at in essence a 1-percent real check rate 
on the way in, maybe you bump that up to maybe close to 4 
percent. But the reality is that papers in Pakistan or papers 
in a lot of other places around the globe can be relatively 
mixed. That is ultimately what we are checking in about 95 
percent of the cases, we are looking at that as to trigger a 
degree of further inspection or look. And that further 
inspection look is at less than a 5-percent rate.
    So you would say the consequences are catastrophic, but we 
have already determined that we can't inspect every container, 
we are not doing so, and so we are inspecting less than 5 
percent, and we are still spending a couple billion dollars a 
year.
    Ms. Gowadia. I apologize. I was thinking about the nuclear 
threat writ large.
    Mr. Sanford. Correct.
    Ms. Gowadia. We do need--I could not agree with you more--
we need to level our investments across all the pathways, 
across all the layers, so that we are not overstrengthening any 
one element of our transportation system or the ways and means 
things can come into the Nation.
    Mr. Sanford. Well, I see I have only got 1 minute. Let me 
just come at you from a different angle. I guess what I am 
saying is this: If you look at break bulk, for instance in the 
Port of Charleston there is a lot of break bulk activity as 
well as containerized activity, the overwhelming majority of 
our inspection seems to be at the containerized level, not at 
the break bulk level. So if you wanted to bring something in 
bad, seems like you could do it break bulk.
    Going back to what one of my colleagues was raising with 
regard to a small boat, the reality is if you leave Bimini in 
the Bahamas and you head for Fort Pierce, you are not inspected 
by an officer until after you have docked that boat. Well, at 
that point, you are in the Intracoastal Waterway, you could 
have hopped off and let the boat go and it goes. I mean, in 
other words, the inspection is coming after the point of entry.
    So if you really want to do harm, it just seems to me that 
there are a variety of other relatively porous vehicles by 
which to do so if you are looking at maritime traffic. So we 
are, again, spending a couple billion dollars a year on an 
overlay that gives us, I think, a false sense of security.
    Ms. Gowadia. Sir, again, really I could not agree with you 
more. We have to be careful to make sure that we apply our 
resources across the board, which is why we work with our 
interagency partners, our international partners, to begin with 
nuclear security, material security, build their own detection 
architecture so the law enforcement capabilities overseas are 
attuned and aware to when materials come out of regulatory 
control and can stop them before they are in any form of 
conveyance to the United States. And we will continue to work 
with our interagency partners to do that.
    Mr. Sanford. I thank the gentleman.
    Mr. Hunter. I thank the gentleman.
    The distinguished gentleman from Maryland is recognized.
    Mr. Cummings. Thank you very much.
    Mr. Maurer, your testimony describes GAO's review of the 
CBP's operational geo-testing division covert tests. Your 
review found several areas in which the CBP could do a better 
job of targeting its limited covert testing resources. Do you 
believe that the CBP has taken the steps necessary to identify 
systemic trends and systemic weaknesses and to resolve these 
trends and weaknesses in a timely manner when and where they 
are found?
    And let me tell you why I am asking this question, this 
series of questions. I have found that so often, as in Katrina, 
we have a situation where we are talking to each other, telling 
us everything is going to be fine, and then we say when the 
rubber meets the road everything is going to be fine, but then 
when it comes time for the rubber to meet the road we discover 
there is no road.
    So where are we? Talk to me.
    Mr. Maurer. Sure. We had three recommendations to CBP in 
our report last year. CBP has taken actions to address all 
three of those recommendations. They have taken actions to try 
to use a more risk-based approach to target their limited 
resources for covert testing to areas that are of higher risk 
or on the technologies that were more costly to deploy and to 
use.
    They have also done a better job of following up on the 
recommendations on the findings of their prior covert tests. 
So, in other words, when they found problems in the past, we 
want to make sure those problems have been recognized and those 
problems have been fixed. They have made improvements in that 
realm as well.
    They haven't done enough quite yet for us to consider those 
recommendations closed, but they are very close, and we are 
pleased with the progress they have made. It has only been 
about a year since our report came out.
    Mr. Cummings. Now, is the deployment of DHS's screening and 
detection capabilities across our Nation's seaports done in a 
manner that corresponds specifically to the varying threat 
levels and scenarios at each port or is the deployment simply 
based on a single standard that all ports are to meet, and if 
so, are all ports meeting the standard?
    Mr. Maurer. The radiation detection equipment is deployed 
to ensure that every single container is scanned for radiation 
before it leaves the port and enters into the United States. So 
from that perspective, DHS is making investment decisions to 
ensure that everything is looked at before it is entered onto 
the roads in the United States.
    Mr. Cummings. Now, Admiral Brown, can you please discuss 
the steps being taken to counter the risk posed by the 
smuggling of people onboard vessels arriving at U.S. ports, and 
what trends are you observing in human smuggling onboard 
vessels?
    Admiral Brown. Thank you for that question, sir.
    I will really address this in two different ways. We did 
have for quite a while a problem with stowaways on commercial 
vessels, but since the implementation of the International Ship 
and Port Facility Security Code and the reciprocal arrangement 
that I described in which we can go out and assess port 
security at international facilities, the number of stowaways 
on commercial vessels has dropped dramatically over the past 
decade. We are down in essentially single digits per month of 
stowaways on commercial vessels arriving in the United States.
    Mr. Cummings. As compared to what?
    Admiral Brown. As compared to what had been hundreds in the 
early 2000s. And the fiscal responsibility for the repatriation 
of those stowaways is on the shippers and shipping companies, 
and so the shippers and the ship captains are highly 
incentivized to prevent stowaways from coming onboard. So that 
problem has been mitigated substantially with a combination of 
international standards and appropriate financial incentives.
    With regard to migrants coming on more traditional pathways 
from the Caribbean, South and Central America toward the United 
States, including Puerto Rico and the Virgin Islands, we do 
have a nationality and threat-screening process. In the case of 
Puerto Rico and the Virgin Islands, it involves biometric 
scanning of many of the people who are attempting to get in. 
And we have maritime repatriation agreements with Haiti, the 
Dominican Republic, the Bahamas, and Cuba that ensure that 
those migrants interdicted at sea are in very high percentages 
returned to their country of departure or origin.
    Mr. Cummings. Now, Mr. Owen, in your testimony you 
identified the Secure Freight Initiative and Pakistan as an 
example of the CBP's strong working relationship with our 
foreign partners. As I understand it, the Secure Freight 
Initiative was previously being implemented at several foreign 
ports other than the one in Pakistan. Is that correct?
    Mr. Owen. Yes, sir, that is correct. Secure Freight was our 
pilot program to test 100 percent scanning overseas, 2007 to 
2010. Qasim, Pakistan, was one of the six locations we piloted 
in.
    Mr. Cummings. I see my time has expired, so I will have 
some questions in writing.
    Mr. Hunter. I thank the gentleman.
    Ms. Hahn, my colleague from California, is recognized.
    Ms. Hahn. Thank you, Chairman Hunter, Ranking Member 
Garamendi. Thanks for holding this hearing.
    This has been of a huge concern for me really since 9/11. 
Actually when I came to Congress, I started the PORTS [Ports 
Opportunity, Renewal, Trade, and Security] Caucus because 
ports, I think, are so important to this country, they are the 
main economic engine. And yet I always had a sense that after 
9/11 we spent a little more time, effort, and money on securing 
our airports than we did our ports. And when people ask me what 
keeps me up at night, it is a dirty bomb at the Port of Los 
Angeles or Long Beach.
    You know, ships make 50,000 calls a year on our U.S. ports, 
they carry 2 billion tons of freight, 134 million passengers. 
They are incredibly important. And one dirty bomb at Long 
Beach-L.A., which accounts for about 44 percent of all the 
trade that comes into this country, would be disastrous.
    We were able to finally quantify what those ports meant to 
our economy in 2002 when there was a labor dispute and the 
workers were actually locked out for 10 days. Everyone finally 
figured out that the closure of the west coast ports accounted 
for about $1 billion a day to our national economy.
    So I am concerned. And I applauded Congress when they 
passed the 2006 SAFE [Security and Accountability for Every] 
Port Act and wanted 100 percent scanning of all cargo 
containers. And as we are hearing today, we are around 3 
percent of scanning. Screening is very different than scanning. 
We keep moving that deadline. No one really seems to believe 
that we can ever do 100 percent scanning. And so that deadline 
just keeps being bumped down the road.
    But it makes me extremely nervous. All the scenarios that 
you all are saying never could happen, like we had a panga boat 
that made land in Rancho Palos Verdes, about 1 mile from where 
I live, not too long ago. And do you all remember in 2002 and 
2003 when ABC News smuggled depleted uranium through the Port 
of New York and the Port of Long Beach? No one detected it. It 
was, like, was in the size of a soda can, it was shielded by 
material that was bought off the shelf, and no one detected 
that in either port.
    So I get that with resources we are doing this layered 
approach and risk-based approach, but I am still very concerned 
that we are not scanning. And by the way, there is a big gap 
between when they come into port and then scanning them before 
they leave on a truck. I am worried, and I thought this hearing 
was about what could happen at one of these large ports, a 
dirty bomb exploding, not to mention the lives. We have 5,000 
men and women that work on the docks at Long Beach and Los 
Angeles every single day.
    So I am still extremely concerned. And the next panel I am 
going to see if we can talk about technology that actually 
could scan 100 percent without slowing down commerce. But I am 
worried. And I think part of why our ports are vulnerable to 
this kind of terrorist attack is because of the disruption that 
it would cause to our national economy and the global economy, 
and also because I am not convinced all of our ports in this 
country have a good recovery plan if, in fact, something like 
this happened.
    So I was going to ask Rear Admiral Brown, what are you 
doing to work with ports in their recovery plan? You know, if 
you imagine the Port of Los Angeles or a couple of those ships 
overturned in the main channel, not to mention maybe thousands 
of lives that would be lost, folks not even being able to get 
there to work or to rebuild a ship or clear a main channel.
    What are you doing that would convince us--and maybe the 
terrorists--that it wouldn't be such an attractive target, 
because we can get back up and running quickly? There was a 
question in there somewhere.
    Admiral Brown. Thank you for that question. I am going to 
have to go overtime to answer it, though, because it is fairly 
complex.
    One of the things I would say is that through the Area 
Maritime Security Committee process, part of that is an 
exercise program that we call AMSTEP [Area Maritime Security 
Training and Exercise Program], and each port Area Maritime 
Security Committee can prioritize for itself what scenarios 
they think are the most important security-related scenarios.
    Since about 2003, different ports around the country have 
done over a dozen--two dozen, actually--exercises that 
specifically address dirty bomb scenarios, and one of the 
elements of each exercise is recovery. We have learned through 
a variety of real-world events that the resilience of the 
maritime security system is vitally important to our population 
and to our economy.
    And so we have developed a process called the Maritime 
Transportation System Recovery Unit, or MTSRU, that we have 
used in response to Superstorm Sandy. We used it actually in 
response to the Haiti earthquake, recognizing, that you do, 
that you don't feed the country or its economy through an 
airport, but in fact through the seaport.
    So helping to recover that port from containers in the 
water, sunken vessels, damaged piers have all informed our 
processes so that we engage with industry, the Army Corps of 
Engineers, the Navy Supervisor of Salvage, and other Federal 
partners, as well as industry, to put recovery of the maritime 
transportation system on the fast track of priority for 
recovery in a scenario like this.
    Ms. Hahn. And I know my time is up. I know Los Angeles has 
a port recovery plan. Are you convinced that every seaport in 
this country actually has at their disposal a recovery plan in 
the case of a major disaster?
    Admiral Brown. I couldn't tell you that every port has a 
plan as robust and partnerships as well exercised as the Port 
of L.A.-Long Beach, but it is a significant part of every Area 
Maritime Security Committee's responsibility.
    Ms. Hahn. I would like to see that as being the Coast 
Guard's priority in working with ports.
    Thank you, Mr. Chairman.
    Mr. Hunter. I thank the gentlelady.
    The gentleman from Louisiana, Mr. Graves, is recognized.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman.
    Thank you for being here today. I just have a few quick 
questions.
    Number one, Admiral, do you have any information on the 
percentages of vessels that are inspected that are actually 
coming into U.S. ports, and then any breakdown of foreign 
vessels as opposed to domestic vessels?
    Admiral Brown. Sir, I am afraid I don't have a specific 
percentage breakdown, because the inspection and examination 
regimes for U.S. vessels and foreign-flagged vessels are quite 
different. For foreign-flagged vessels, as a port state, we 
have relatively limited authority primarily related to safety 
and security of that vessel. And what we do are called ``port 
state control examinations,'' and they are risk-based, based on 
the vessel's history, as I was discussing with one of the 
Members earlier, the ownership, the cargo shippers, and so on. 
And so some vessels are examined every time they come to a U.S. 
port based on their track record; for some, they may go years 
without being examined.
    Mr. Graves of Louisiana. Would you be able to just kind of 
gut--and obviously you could come back to the committee and 
provide information for the record--but would you know just 
off-the-cuff if we inspect more domestic or foreign vessels 
coming into U.S. ports?
    Admiral Brown. I would have to ask my staff to do some 
research and get back to you in writing.
    Mr. Graves of Louisiana. Would you mind, if you could 
provide that information on the----
    Admiral Brown. We would be happy to do that, sir.
    Mr. Graves of Louisiana. Thank you.
    [The information follows:]

        RESPONSE PART 1: In calendar years 2010 through 2014, an 
        average of 9,220 distinct vessels made 78,068 port calls to the 
        United States. The Coast Guard conducted a yearly average of 
        9,644 port state control (PSC) examinations and 8,718 
        international ship and port facility security (ISPS) 
        examinations on these vessels during this period. The average 
        yearly number of ships detained for environmental protection 
        and safety related deficiencies during this period was 124. The 
        average yearly number of ships detained for security related 
        deficiencies during this period was 12.

        Vessels are targeted by their Coast Guard inspection history; 
        associations with owners, operators, charterers, flag states, 
        and recognized organizations (often classification societies) 
        with poor PSC performance history in the U.S., lack of recent 
        Coast Guard inspections, vessel type and age, and last ports of 
        call. More often than not, a vessel is targeted for examination 
        due to its first arrival to the U.S. or because it has not 
        visited the U.S. in more than 12 months. For the most part, 
        ships are examined one or more times a year, except for ships 
        recognized as quality ships by our QUALSHIP 21 program (these 
        ships are subject to port state control safety examinations 
        every 2 years and ISPS examinations every year, unless a threat 
        is identified prior to arrival).

        Additionally, the USCG imposes Conditions of Entry (COE) on any 
        vessels arriving to the United States after calling on ports 
        that the Coast Guard has determined to lack effective anti-
        terrorism measures, or from those ports that the Coast Guard 
        cannot ascertain that effective anti-terrorism measures are in 
        place. COEs are additional security measures that the vessel 
        must implement while in identified countries. These countries 
        and the list of COEs are found in the publicly available USCG 
        Port Security Advisory (3-15), dated 22 June 2015. The USCG 
        verifies COEs prior to, or immediately upon, the vessel's 
        arrival to the United States. The USCG conducted 1,627 of these 
        boarding in calendar year 2014.

        RESPONSE PART 2: In calendar years 2010 through 2014, an 
        average of 20,326 inspections were conducted on U.S.-flag 
        inspected vessels. Currently, there are 11,867 active U.S.-flag 
        inspected vessels. This equates to an average of 1.71 
        inspections per vessel.

        Generally speaking, U.S.-flag inspected vessels are attended at 
        least once a year. In addition, those in saltwater service are 
        attended twice in any 5-year period for a drydock and internal 
        structural exam while those in freshwater service are attended 
        once in a 5-year period for a drydock and internal structural 
        exam. Next, should a vessel be involved in a marine casualty, 
        it is generally attended for a damage assessment and to 
        witness/test any repairs. Finally, those vessels enrolled in 
        the Alternative Compliance Program (ACP) or the Maritime 
        Security Program (MSP) may be targeted for additional oversight 
        inspections based on their compliance history, vessel age/type, 
        owner operator history, outstanding deficiencies and/or 
        classification society requirements and history of port state 
        control detentions or domestically initiated operational 
        controls.

        Additionally, the USCG imposes Conditions of Entry (COE) on 
        vessels arriving to the United States after calling on ports 
        that the Coast Guard has determined to lack effective anti-
        terrorism measures, or from those ports that the Coast Guard 
        cannot ascertain that effective anti-terrorism measures are in 
        place. COEs are additional security measures that the vessel 
        must implement while in identified countries. These countries 
        and the list of COEs are found in the publicly available USCG 
        Port Security Advisory (3-15), dated 22 June 2015. The USCG 
        verifies COEs prior to, or immediately upon, the vessel's 
        arrival to the United States. The USCG conducted 1,627 of these 
        activities in calendar year 2014.

    Admiral Brown. With regard to U.S. vessels, because as the 
flag state we are responsible not only for the safety and 
security, but the safe manning, operation, and environmental 
standards on the vessel, they are subject to a different 
inspection regime that may subject them to more visits than a 
foreign-flagged vessel or less depending on the specific 
inspection regime.
    Mr. Graves of Louisiana. Thank you. A second question. I 
have seen, and am actually curious about the Department of 
Homeland Security's response as well, but I have seen 
statistics and somewhat dated that showed the percentage of 
vessels that are actually inspected, and I remember it being 
extraordinarily low and that raising serious concern. But can 
you talk about the some of the work that you are doing in the 
source and transit zones as well, which may suggest that the 
actual percentage of vessels inspected at U.S. ports may be 
deceiving? Does that make sense?
    Admiral Brown. It certainly does, sir.
    Mr. Graves of Louisiana. And then how that relates to 
transnational criminal organizations.
    Admiral Brown. Certainly. So with regard to both security 
with regard to a dirty bomb, the main subject of this hearing, 
but also with regard to protecting our borders from other 
transnational threats, our operation is based on layered 
security, where we attempt--and I have described earlier some 
of the partnerships that we have with regard to port security--
to inspect port facilities for their security regime overseas.
    With regard to specifically the source and transit zone for 
narcotics, we also have significant partnerships with countries 
in South and Central America that allow us to board their 
flagged vessels on the high seas, recognizing that many of 
these nations don't have robust coast guards or navies with the 
kind of offshore capability that we have. And so those 
partnerships allow us to detect and interdict drug shipments 
very far offshore, in the case of one interdiction I made at 
sea of a major cutter, over 1,000 miles west of the Galapagos 
Islands, with drugs that were destined for a maritime landing 
in Mexico, but then ultimately for the United States.
    So we do, using our long-range aircraft, our long-range 
cutters, and detection and monitoring capabilities of the 
Department of Defense and other partners, we attempt to 
identify those targets as far away as possible, interdict them 
as far away as possible, but then whenever we can, prosecute in 
the United States so we not only take the drugs off the market, 
but we attack the criminal network behind those shipments.
    Mr. Graves of Louisiana. I am not sure if any of the 
Customs or DHS or any of you folks care to----
    Mr. Owen. In terms of your vessel inspection question, I 
would just like to note that every vessel arriving from foreign 
are boarded by U.S. Customs and Border Protection officers to 
take care of the immigration admissibility issue. So there is a 
Federal law enforcement presence on each one, not to the level 
of inspection for the issues that the Coast Guard looks for, 
but to determine the admissibility of those crew.
    Mr. Graves of Louisiana. Great. Thank you.
    Commissioner, I would actually like to ask you one other 
question. You know, whenever I look across Government, you 
obviously have local law enforcement, you have State, and you 
have Federal law enforcement entities that are out there. In 
the State of Louisiana, particularly in the Baton Rouge area 
where I am from, the Pointe Coupee Parish sheriff--we have 
parishes instead of counties--has formed this organization 
known as JTF-7, Joint Task Force 7, that initially was seven of 
the surrounding parishes' sheriffs that were all grouped 
together and they were doing a lot of maritime security work.
    What role do you see those folks playing, considering they 
are on the ground, they have better coverage in many cases than 
some of your folks do, but what role do you see them playing in 
port security, maritime security as part of the overall system?
    Mr. Owen. Yes, absolutely. I mean, our presence is limited 
in some of the ports, especially in some of the parishes. I was 
the port director in New Orleans for 4 years, so I understand 
the parish system. And the important role that the local county 
sheriffs will play in assisting us is that additional presence 
as to what is taking place. They will often come in contact 
with individuals that may be of concern as to what they are 
doing in those seaports. They will notify us. We'll respond 
out.
    So very strong working relationships, particularly in small 
communities where all of the law enforcement community have to 
rely on each other because no single entity has the resources 
that they need. So clearly a strong role for that State, 
Federal, local partnership.
    Mr. Graves of Louisiana. Great. Thank you, Commissioner.
    If the chairman will----
    Mr. Hunter. Sure.
    Ms. Gowadia. Well, I would just like to add that we 
certainly believe very strongly in our State and local 
partnerships, and we have been working with our Area Maritime 
Security Committees and also with our State and local partners 
in law enforcement, particularly in your backyard, to build 
capabilities across the State public safety and law enforcement 
agencies. In fact, today all 50 States, we have engaged with 
all 50 States beginning to build capabilities across our 
Nation.
    Mr. Graves of Louisiana. Great. Thank you very much.
    I just want to make note that Sheriff Torres, who leads 
this thing, called me and told me a while back that apparently 
the Department of Homeland Security was no longer allowing the 
seven or eight sheriffs that are all part of this task force to 
apply for a Federal Homeland Security grant jointly, that they 
were required to separate out. I am not sure of the status of 
that, but I just wanted to put it on your radar.
    Thank you.
    Mr. Hunter. I thank the gentleman.
    Ms. Brownley, my colleague from California, is recognized.
    Ms. Brownley. Thank you, Mr. Chairman.
    I think my first question is to Mr. Maurer. I represent a 
small port, but a deepwater port, on the coast of California, 
Port Hueneme, and a lot of automobiles come through that port. 
Big ships come in, and there are 6,000 automobiles coming off 
of those ships.
    And so I was wondering if the GAO had reviewed the 
screening procedures for noncontainerized cargo versus 
containerized and if you had any specific recommendations for 
improving screening for noncontainerized cargo.
    Mr. Maurer. Most of our work has been focused on 
containerized cargo, because that is where the bulk of the 
Federal investment has been. From a larger perspective, we have 
done work looking at the much broader interagency effort to 
make sure that terrorists and nation-states aren't getting 
their hands on radiological material or nuclear material that 
would allow them to construct a device and bring it into the 
United States through whatever mechanism.
    So one of the themes of our body of work has been that the 
technology and the screening procedures are very important. But 
there are all these other programs that are designed to secure 
the material at the source or to work through treaty regimes or 
to ensure that we have a robust intelligence community or law 
enforcement presence that is sharing information among Federal, 
State, and local partners to identify plots well before someone 
is able to construct a device and bring it into a port.
    Ms. Brownley. And, Mr. Owen, can you talk a little bit 
about the screening process for noncontainerized?
    Mr. Owen. Yes, absolutely. For all of the bulk, the break 
bulk, the RoRo [roll-on, roll-off], as you see up in Port 
Hueneme there, dependent on how the cargo is discharged, it may 
still pass through a radiation portal monitor. If it does not, 
the officers will address that through handheld radiation 
isotope devices. So in the case of Port Hueneme, most of those 
roll-on, roll-off vehicles do pass through the radiation portal 
monitors. The bananas, the pineapples that are coming into Port 
Hueneme as well are often containerized in that warehouse there 
onsite and then actually comes through the radiation portal 
monitor.
    So the radiation portal monitors are our primary detection 
methodology. However, we do have the handheld radiation isotope 
devices that we use on bulk, break bulk. And every CBP officer 
carries a personal radiation pager on their duty belt that will 
alert should they come in contact with any of that as well.
    Ms. Brownley. Well, thank you for that. Do you think small 
ports are more vulnerable than large ports?
    Mr. Owen. I think small ports are less vulnerable, because 
everyone seems to know everyone. And, again, in the case of 
Port Hueneme, you have those same vessels that call every 3 or 
4 days, you have the same crewmen, you have the same 
stevedores, you have known entities working these. I think in 
that environment someone from the outside unknown who may be up 
to something no good clearly stands out.
    We have strong relationships with the seaport communities. 
When the terminal operators, the longshoremen, the stevedores, 
when they notice something that is amiss, they reach out to 
either the Federal or the port police across the board.
    Ms. Brownley. Very good.
    And, Rear Admiral, to follow up on Ms. Hahn's line of 
questioning, if there was a port that went down, are there 
contingency plans to keep trade moving?
    Admiral Brown. That is a great question. Thank you. Partly, 
since trade is not entirely a Federal responsibility, the 
private sector and their distribution shipping networks would 
adapt to any disruption, whether it was a natural or man-made 
disruption, in a port. Some of that could be directed or shaped 
by Federal response, including the actions of the Coast Guard 
captain of the port responsible for a port, who might need to 
shut down a port from certain activities for a time to allow, 
whether it was recovery or investigation, and would work with 
neighboring captains of the port to see if we could expedite 
the adaptation of shippers to the new conditions.
    Ms. Brownley. So each port is not necessarily aware of a 
specific contingency plan, it is just if something happens, you 
will adapt?
    Admiral Brown. Right. Each port has this Area Maritime 
Security Committee which has a planning process, but because 
the type and the duration of the disruption would be so 
dependent on the specific scenario, the vessels that happened 
to be in port on that particular day, it would be impossible to 
prescribe ahead of time a specific recovery plan for shipping 
in that particular port.
    Ms. Brownley. Thank you, Mr. Chairman. I yield back.
    Mr. Hunter. I thank the gentlelady.
    We have a second panel now. We were just looking at their 
testimony, and it is in math, whatever language math is, it is 
in math.
    But I just want to stress one last--we talked today about 
stuff coming in from known areas where you can do risk 
assessment. I guess my last question for all of you is, why 
wouldn't bad guys that want to get a bad device in the U.S. 
take the same routes as guys that want to get drugs into the 
U.S.? Meaning, why wouldn't you bring it up from Central or 
South America and work up through the land borders and sneak it 
across? Is that totally--is that crazy talk? Do you think that 
they would ship it in and have the manifest be honest and all 
that kind of stuff?
    Ms. Gowadia. So that is certainly one of the scenarios we 
consider in the Global Nuclear Detection Architecture when we 
analyze it. So we do look at multiple means and modes of 
bringing the vessel in. In fact, I would love to sit down and 
share with you a classified briefing where we analyze almost 
400 elements of the architecture and base it on defensive 
capabilities, offensive options, and then base our resources 
and our----
    Mr. Hunter. We will take you up on that. We are going to 
have a classified hearing on this exact thing, and we can talk 
there more.
    Ms. Gowadia. Excellent.
    Mr. Hunter. Ms. Hahn is recognized.
    Ms. Hahn. Thank you, Mr. Chairman.
    I guess I just want one more clarification from the three 
of you. I mean, we are basically banking on this layered 
approach, this point of origin when it leaves the port. Are the 
three of you sitting here today saying that you are 100 percent 
positive that a dirty bomb could not slip through and get to 
one of our ports under this security model?
    Ms. Gowadia. Ma'am, I don't think anybody could give you a 
100-percent guarantee for that, but I can tell you that based 
on the incredible resources of our law enforcement officers, 
our intelligence community, and our technical community, we are 
bringing every last resource we have to bear. And if we didn't 
use all that was at our disposal in this layered, multifaceted 
approach, we would be more vulnerable. We are far better off 
today than we were 10 years ago.
    Ms. Hahn. Would we be better off with 100 percent scanning?
    Ms. Gowadia. In a classified session, I would love to walk 
you through and explain to you why we probably would not be.
    Ms. Hahn. Rear Admiral?
    Admiral Brown. Ma'am, the only thing I would add to that is 
that we have had over the past 12 years or so several scenarios 
in which there was a radiological or threat concern on a vessel 
coming in from overseas. And with the MOTR process begun, that 
is the Maritime Operational Threat Response interagency 
process, we are able to either board the vessel at sea and 
resolve the issue or bring the vessel to a safe place with 
minimal population to conduct an examination and resolve the 
issue.
    And in one very specific case, not regarding a bomb threat, 
but a possible terrorist threat where it was ambiguous as to 
whether the vessel was going to a United States port or a 
Canadian port, we are able to do that same level of interagency 
coordination with our Canadian counterparts to very good 
effect.
    So I am confident that the processes that we have in place 
are effective for recognizing and responding to these threats 
in a way that will mitigate the probable impact. But as Dr. 
Gowadia said, I couldn't say with 100 percent certainty that we 
can prevent a dirty bomb scenario.
    Ms. Hahn. Todd?
    Mr. Owen. And I would also agree there is no 100 percent 
certainty. But with the 100-percent scanning, I think when you 
look strategically at where it does make sense, like what we 
are doing in Qasim, Pakistan, where every container coming out 
of Qasim is scanned, with what we started this year in Jordan, 
in Port of Aqaba, where every container coming out of Jordan is 
scanned, I think in those strategic locations that give us more 
concern, it is the right approach.
    Ms. Hahn. Thank you.
    Mr. Hunter. I thank the gentlelady.
    And we are not going to shake hands and stuff, because we 
have about a half an hour with the next panel. So thank you 
very much for your time and for what you do.
    And we will have more hearings on this coming up, Ms. 
Gowadia, so we will have a classified, fun hearing.
    Mr. Garamendi [presiding]. While the chairman is out, if 
the next panel would come up and take their places. Mr. Gregory 
Canavan, Charles Potter, Joe Lawless and Stephen Flynn. The 
chairman is out of the room for a few moments, but he asked me 
to begin your testimony. We do have a short period of time, so 
we will begin.
    Mr. Canava, Canavan?
    Mr. Canavan. Canavan, sir. It is Irish.
    Mr. Garamendi. It is a fine name, then.
    Mr. Canavan, please.
    Mr. Canavan. Should I begin?
    Mr. Garamendi. Yes, would you please.

  TESTIMONY OF GREGORY H. CANAVAN, PH.D., SENIOR FELLOW, LOS 
    ALAMOS NATIONAL LABORATORIES; CHARLES A. POTTER, PH.D., 
 DISTINGUISHED MEMBER OF THE TECHNICAL STAFF, SANDIA NATIONAL 
LABORATORIES; JOSEPH M. LAWLESS, CHAIRMAN, SECURITY COMMITTEE, 
AMERICAN ASSOCIATION OF PORT AUTHORITIES; AND STEPHEN E. FLYNN, 
 PH.D., DIRECTOR, CENTER FOR RESILIENCE STUDIES, NORTHEASTERN 
                           UNIVERSITY

    Mr. Canavan. I am Greg Canavan. I am from Los Alamos. I 
submitted my testimony. Apparently the chairman doesn't want me 
to read the math, so I will summarize, if you don't mind, and 
ask that you submit it for the record.
    I am very honored to be here. Thank you for inviting me. 
And I will not use math, I will just say a few words.
    I am listed as a senior fellow from Los Alamos, that is my 
daytime job, but this is not necessarily a Los Alamos project. 
It is something that I have been working on, on and off, 
whenever I had a few minutes, ever since 9/11. On that day, the 
Department of Energy and the Department of Defense were kind 
enough to send an airplane out to New Mexico to get Dr. 
Hagengruber and I from--he is from Sandia--to come back here to 
pursue some projects that we had been looking into before 9/11 
on unusual threats to the United States, one of which was a 
concern that there might have been nuclear materials here in 
the Capitol, perhaps in an operational form. And so we spent 
some time looking into that.
    We were not looking for dirty bombs, we were looking for 
nuclear weapons, but the detection approaches are similar and 
also quite difficult. As Ms. Hahn pointed out earlier, groups 
have smuggled depleted uranium into the country fairly 
frequently. Actual enriched uranium is a little harder to find, 
but not that much easier. And so we were trying to find nuclear 
materials.
    I might say that as an Air Force colonel and for the last 
50 years or so, I have worked on designing nuclear weapons, 
testing nuclear weapons, occasionally flying nuclear weapons. 
But 9/11 was the first time I ever had to worry about the 
problem of trying to detect nuclear materials, and I found it 
to be a very difficult and challenging business. There is not 
much signature from them at all. They are a lot harder to find 
in a way than dirty bombs. And we also found that although we 
have quite good techniques for defeating nuclear weapons--that 
is diffusing them once you have found them--that the business 
of trying to find them in the first place is very, very 
difficult.
    After 9/11, I continued to work with the Department of 
Defense for a couple of years to try to remedy this problem. It 
was very frustrating, it was quite difficult, in part because I 
think we went off on the wrong direction. We recognized that 
neutrons, tiny particles of matter that don't carry any 
electrical charge at all, can go right through anything, 
through this building, through ships, through whatever, so they 
are a great way for candling nuclear materials. Particularly 
since when they hit a fissionable material they produce a lot 
more neutrons and enhance the signature, so that makes them a 
good thing to work with.
    But we kind of got off on the wrong footing in that we 
adopted the idea that the right approach was to stand off 2, 3, 
4 miles with an enormous particle accelerator from high-energy 
physics and try do the interrogation from there. It didn't 
improve your survivability if something went off, it just made 
everything a lot more complicated, and we kind of got 
discouraged with that approach.
    But anyhow, we went that way. And so after a while, it just 
looked too hard, and we kind of gave up. And so the problem has 
not advanced very much from 9/11 to today in terms of detecting 
actual nuclear weapons.
    So what has changed? And I think that there are five things 
that have changed. One is that a decade of development in 
nuclear sources and detectors have made much more practical 
schemes and automated schemes possible and even affordable, so 
that you could now have detector systems that could fit on 
ports, transporter vehicles, ships, whatever, and do, if you 
will, an inspection of all the things that came through the 
port for nuclear weapons.
    What that leads to then, in the testimony that I handed in, 
it lends to a sort of modular deployment. That is, most stuff 
that moves today moves in TEUs, the 20-foot equivalent units 
that go on cargo ships now are now in the two TEUs, the 40-foot 
units that get racked up between the bulkheads in these big 
ships. And happily, if you use neutrons, particularly fast 
neutrons, they are very well suited to uniformly candling or 
inspecting such containers either in port or in transit. So I 
found that very interesting.
    The second thing that hit me was a mistake that we made 
early on was to ignore countermeasures to the approaches that 
we were advancing for detection. We were sort of asked to go 
against a friendly adversary, if you will, somebody that made 
life easy for us. And that turned out to be not a favor, 
because we ignored the fact that there are absorbers, things 
like cadmium barium, that are used to control ordinary power 
nuclear reactors. They absorb neutrons very efficiently, so 
that one-thousandth of an inch of cadmium could knock the 
signals from a nuclear weapon down to almost nothing.
    But then I realized that fast neutrons, neutrons up at the 
energy where they are born, could easily get around these 
absorptions and produce big signals, and they were relatively 
insensitive to the known countermeasures.
    There is the penalty that someone mentioned already. In 
radiography, when you are x raying something, most of your x 
rays go places that you are not interested in. For instance, in 
these big TEUs, if you are looking for a bomb that is maybe 10 
centimeters across and the TEU is 3 meters across, only a 
fraction, maybe 1 percent of the neutrons actually hit the 
weapon to produce a signal and the rest of them act as noise. 
So that is a problem that you have to overcome.
    But then the third thing, I realized after some thinking 
was that in the process of hitting the nuclear core, the 
neutrons sort of identify themselves. Instead of being at their 
initial energy, they kick out neutrons that have a spectrum all 
the way from 10 percent to 90 percent of that of the neutrons 
that are incident on them. They are easily identified, so they 
can be collected and you can throw away the noise very 
efficiently, particularly since the separation in energy of 
noise from the source is large and fairly specific and energy 
doesn't degrade much in the process of slowing down. Therefore 
you don't wind up with too many of the noise neutrons showing 
up in your bin where you are expecting your signal.
    So those four things made life a lot easier, to the point 
where you can do very effective filtering on energy, which 
makes up and makes up more than for what you lose initially in 
the numbers of neutrons that missed the target. And so overall 
you can get signal-to-noise ratios at the appropriate energies, 
which are sort of halfway through the slowing-down process, 
signal-to-noise ratios of 100 to 1,000 or more, which means 
that you can have very confident detection of the nuclear 
materials with a very low false-alarm ratio of other materials.
    Someone alluded to it in the previous talk, that the tough 
thing about x rays is that you never know what is going to be 
in one of these shipping containers. It may be axles, it may be 
electronics, it may be whatever. And even if you can radiograph 
one of these things 1 percent of the time, then you still have 
to go through some long screening process or unpacking process 
to figure out what the detected object actually was. With a 
very high signal-to-noise ratio nuclear signal, you have a 
fighting chance of passing everything through without having to 
go back and try to sort out what the problem was in the first 
place.
    So it just seemed to have all of the characteristics that 
we were looking for. Even before 9/11, I was on the advisory 
committees for U.S. Space, Air Force Space, and North Command 
when it was first created, and we were sitting down trying to 
figure out how you should parcel out responsibility for 
detection.
    Neutrons seemed to do everything that we had hoped that the 
Coast Guard would be able to do in its charter as the Service 
that would detect things before they got to the coast, 
eradicate losses and false alarms on the spot, and execute the 
first line of defense of the country.
    Mr. Hunter [presiding]. That is all right, Doctor. Thanks 
for being here. And we will come back to this stuff too.
    Dr. Potter, you are recognized. And our next witness is Dr. 
Charles ``Gus'' Potter, Distinguished Member of the Technical 
Staff for Sandia National Laboratories.
    You are recognized.
    Mr. Potter. Thank you. Chairman Hunter, Ranking Member 
Garamendi, and distinguished members of the Coast Guard, thank 
you for the opportunity to testify today on the topic of 
preventing and responding to an RDD [radiological dispersal 
device] attack. My name is Dr. Charles Potter. I am a systems 
analyst and a health physicist from Sandia National 
Laboratories in Albuquerque, New Mexico, and I have specialized 
in the RDD threat and radiological nuclear detection 
architecture for over the past 5 years.
    The United States Government and many of our foreign 
partners have been working for more than a decade to reduce the 
risk of a successful radiological dispersal device attack. From 
an engineering standpoint, we define risk as a combination of 
the likelihood of the attack--that is, the degree at which an 
adversary has the intent, capability, and materials required--
and the consequence of the attack. The RDD threat is a very 
complex and a multidimensional problem, and the U.S. Government 
has designed and implemented a variety of programs, based on 
scientific studies by Sandia National Laboratories and others, 
to reduce the likelihood of an RDD attack in terms of reducing 
the availability of material for exploitation, as well as 
identifying and impeding probable pathways from device to 
target.
    However, the scientific understanding of the cost, time 
needed to clean up, and psychological effects of an RDD event 
are less well understood. No comprehensive standard has been 
established regarding what radiation limits would constitute a 
successful cleanup. Publications and released documentation 
written by the Al Qaeda organization indicate their 
understanding of the public unsettlement and possible economic 
consequences from an RDD attack. Dhiren Barot in 2006, Jose 
Padilla in 2007, and Glendon Crawford in August of this year 
were each convicted of attempting to develop and use a dirty 
bomb in New York City, Chicago, and elsewhere.
    RDDs can be developed by a spectrum of adversaries from a 
relatively low capability lone wolf, such as these three 
individuals, to a highly capable and technically competent 
adversary, such as Aum Shinrikyo, who perpetrated the 
coordinated sarin attacks on the Tokyo subway system in 1995. 
The more technically capable an adversary is, the more likely 
they would be to find ways to spread the radioactive material 
over larger areas and at higher radioactive levels.
    Since the 2000 UCLA [University of California, Los Angeles] 
study on RDD risk at the Ports of Los Angeles and Long Beach, 
many policies, programs, and systems have addressed the threat 
likelihood. This includes NRC [U.S. Nuclear Regulatory 
Commission] regulations for source security, the DOE 
[Department of Energy] Office of Radiological Security's 
domestic and foreign programs on radiological source security 
and recovery, and the DHS Domestic Nuclear Detection Office's 
Global Nuclear Detection Architecture to identify radioactive 
material outside of regulatory control. If a device is located 
prior to detonation, multiagency teams now exist for rapid 
response.
    RDDs are unlikely to result in large immediate health 
effects beyond those caused by the explosive blast, although 
there may be some long-term effects to more exposed 
individuals. However, depending on the radionuclide involved, 
the economic consequences could be considerable.
    If the radionuclide is difficult to remove from surfaces, 
as some are, the contaminated area could be off limits for 
months or even years. This would result in businesses within 
those areas being effectively shuttered and residents being 
relocated, semipermanently or permanently, while costly 
decontamination efforts are undertaken. Additionally, there 
would be interdependencies in the quarantined area between the 
residents and the businesses they patronize.
    Since there is no comprehensive policy or standard for 
post-cleanup radiation levels, it is difficult to estimate the 
cost that would be directly associated with decontamination.
    In summary, the RDD risk is real and multifaceted, and the 
U.S. Government has implemented a number of programs to 
increase the security of U.S. radiological materials and 
increase the difficulty of illicit movement of those materials, 
resulting in a reduced likelihood of an RDD attack. However, 
there is still significant uncertainty in our understanding of 
the costs that would accrue after such an event.
    The development of policies and technical capabilities for 
effective cleanup to allow for resumption of normal operations 
following an RDD attack would constitute an important element 
of the multidimensional integrated solution for addressing the 
RDD threat.
    Thank you.
    Mr. Hunter. Thank you, Dr. Potter. And you actually gave 30 
seconds back from Dr. Canavan.
    The next witness is Mr. Joe Lawless, the chairman of the 
Security Committee for the American Association of Port 
Authorities.
    You are recognized.
    Mr. Lawless. Thank you, Chairman Hunter, Ranking Member 
Garamendi, and distinguished members of the subcommittee. My 
name is Joseph Lawless. I am the director of maritime security 
at the Massachusetts Port Authority in Boston. I am here today 
on behalf of the American Association of Port Authorities, 
where I chair the Security Committee.
    AAPA is the unified and collective voice of the seaport 
industry in the Americas. AAPA empowers port authorities, 
maritime industry partners, and service providers to serve 
their global customers and create economic and social value for 
their communities. Our activities, resources, and partnerships 
connect, inform, and unify seaport leaders and maritime 
professionals in all segments of the industry around the 
Western Hemisphere.
    Security is our top priority for all of our members, and 
this testimony I am giving today is on behalf of our U.S. 
members.
    Securing our ports and communities from dirty bombs could 
not happen without strong partnerships. This means our ongoing 
relationships with port authorities, the Federal Government, 
specifically the Customs and Border Protection agency, the 
United States Coast Guard, the FBI, shippers, port workers, and 
State and local law enforcement, who all play a vital role in 
identifying threats and combining security resources to 
coordinate if a dirty bomb were to arrive on the U.S. shores.
    The threat of dirty bombs ending up in the hands of people 
who want to cause us harm in this country was underscored 
recently by accounts of a disrupted illicit smuggling 
operation. It was reported that over the last 5 years there 
have been at least four attempts by criminals in Eastern Europe 
to sell radioactive materials to Middle Eastern extremists. If 
any of these smuggling plots were successful, these radioactive 
materials could have been used to construct a dirty bomb that 
could be ultimately used against us. The concern is that 
terrorists could exploit the maritime transportation system to 
convey a dirty bomb into this country.
    Stopping dirty bombs before they reach our shores is a 
priority, but we must have an effective system of detecting 
dirty bombs if they were to make it to our shores. A fully 
funded and staffed Customs and Border Protection agency is the 
first step in fighting the threat of dirty bombs. CBP officers 
meet the ships at all ports of entry to check the manifests and 
utilize radiation portal monitors.
    CBP and ports rely upon the RPMs to detect dirty bombs in 
containerized cargo shipped into this country. RPMs are 
detection devices that provide CBP with a passive, nonintrusive 
process to screen trucks and other movements of freight for the 
presence of nuclear and radiological materials. They are 
mandated in the SAFE Port Act of 2006, and the 22 largest ports 
by volume must have RPMs and all containers must be screened 
for radiation.
    Almost 10 years have passed since the RPMs were mandated. 
However, a decade into this program questions have been raised 
regarding who pays for the maintenance of the RPMs, who is 
responsible for paying for new portals during port expansion, 
and what is the long-term obligation for the next generation of 
RPMs. A DHS inspector general 2013 CBP ``Radiation Portal 
Monitors at Seaports'' report states that the initial estimates 
of deployed RPMs showed an average useful life expectancy of 10 
years.
    What we hear repeatedly from our port members is the lack 
of clarity in funding and administering the RPM program. It has 
become a real hindrance in how we protect our ports. We are 
fast coming to the end of the first generation of RPMs' life 
expectancy. Ports such as Tampa, Jacksonville, Long Beach, New 
York/New Jersey, and Mobile have all reported complicated 
discussions with their regional CBP officers on the ongoing 
responsibilities related to RPMs.
    A recent example is the Port of Jacksonville, where CBP 
requested that Jacksonville assume financial responsibility for 
the RPM technology sustainment, hardware, software, and 
connectivity. This is significant given the complex and 
critical nature of these federally owned and currently 
maintained systems. Other ports are reporting similar 
disruptions in the RPM program. There is too much at stake for 
ports and CBP officers to have to engage in policy and funding 
negotiations. Congress and the administration must set a clear 
path on the RPM program.
    RPM detection is a federally mandated program. CBP should 
request adequate Federal funding to purchase, install, and 
maintain all RPM equipment at ports throughout the United 
States. If this is not feasible, then the Department of 
Homeland Security should consider the creation of a stand-alone 
priority within the FEMA [Federal Emergency Management Agency] 
Port Security Grant Program, titled ``Radiation Detection 
Portal Monitors,'' or expand upon the CBRNE [chemical, 
biological, radiological, nuclear, and explosives] core 
capability to allow ports to request security grant funding in 
support of the purchase and installation of radiation detection 
portals.
    Regarding the Port Security Grant Program, many port 
authorities have utilized the Port Security Grant Program to 
obtain radiological and nuclear detection equipment. Personal 
radiation detection devices that first responders wear on their 
belts, isotope identifiers that are used to determine the 
source of radiation alarms, and sophisticated backpack 
detection devices are some of the items acquired through the 
Port Security Grant Program. These items not only supplement 
CBP's efforts, but also enhance law enforcement's role in the 
Coast Guard's small vessel rad/nuc detection program.
    I would urge Congress to restore the funding for the Port 
Security Grant Program to its original level and maintain the 
Port Security Grant Program as a stand-alone Department of 
Homeland Security grant program.
    Additionally, we would encourage that whenever possible, 
the grants go directly to the ports so that our security 
facilities will have the necessary resources to fully implement 
their security programs.
    In conclusion, we must provide law enforcement agencies, 
such as the CBP, and our port security directors with all the 
tools and resources necessary to succeed.
    I appreciate the opportunity to testify here today, and I 
look forward to answering any questions that you might have. 
Thank you.
    Mr. Hunter. Thank you, Mr. Lawless.
    The final witness on the second panel is Dr. Stephen Flynn, 
director of the Center for Resilience Studies with Northeastern 
University.
    You are recognized, Dr. Flynn.
    Mr. Flynn. Thank you, Mr. Chairman. You are going to hear 
two back-to-back Boston accents here now coming at you.
    I have been at this for about 30 years, first as a Coast 
Guard officer, retired from that Service, and now currently at 
Northeastern University where with the support of the MacArthur 
Foundation I am looking at the growing risk of managing the 
threat to our global supply chains via the risk of radioactive 
material as well as weapons of mass destruction. So I am 
honored to be here today.
    Mr. Chairman, it is my assessment that the threat of a 
dirty bomb at a U.S. port remains a clear and present danger. 
Simply stated, current U.S. efforts are not up to the task of 
preventing a determined adversary from exploiting the global 
supply system and setting off a dirty bomb in a U.S. port.
    If a dirty bomb was set off in a U.S. port it would not be 
so much of a weapon of mass destruction as it would be of one 
of mass disruption. There would be three immediate consequences 
associated with this attack.
    First, there would be local deaths and injuries associated 
with the blast of the conventional explosives.
    Second, there would be the environmental damage and 
extremely high cleanup costs. As Dr. Potter was laying out 
here, we don't have standards for actually coping with the 
aftermath.
    And then third, there would be what I call the morning-
after problem. That is, since there would be no way of 
determining where the compromise that led to the incident 
happened within the security system, we would have sort of two 
outcomes. One, the entire supply chain, all the transportation 
nodes and providers, would be presumed to be potentially a risk 
of potential follow-on attacks. Further, it would call into 
question all the existing container port security initiatives 
that the first panel talked about here today.
    On March 28, 2006, nearly a decade ago, and this is my 29th 
time talking about these issues before Congress since 9/11, I 
outlined the following hypothetical scenario that had been 
informed by my own research as well as the insights provided by 
Gary Gilbert, who is the chairman of the Security Committee of 
Hutchison Port Holdings, the world's largest terminal operator. 
I included in that testimony before the Senate Permanent 
Subcommittee on Investigations the following scenario.
    A container of athletic footwear from a name brand company 
is loaded at a manufacturing plant in Surabaya, Indonesia. The 
container doors are shut and the mechanical seal is put into 
the door pad-eyes. These designer sneakers are destined for 
retail stores in malls across America. The container and seal 
numbers are recorded at the factory. A local truck driver, in 
this case sympathetic to Al Qaeda, picks up the container. On 
the way to the port he turns into an alleyway and backs up the 
truck at a nondescript warehouse where a small team of 
operatives pry loose one of the door hinges to open the 
container so they can gain access to the shipment.
    Some of the sneakers are removed, and in their place the 
operatives load a dirty bomb wrapped in lead shielding, which 
will defeat the radiation portal monitoring, and then they 
refasten the door. The driver then takes the container, now 
loaded with a dirty bomb, to the port of Surabaya, where it is 
loaded on a coastal feeder ship carrying about 300 containers 
for a voyage to Jakarta. In Jakarta the container is 
transferred to an Inter-Asia ship, typically carrying 1,200 to 
1,500 containers, to the Port of Singapore or the Port of Hong 
Kong. In this case, the ship goes to Hong Kong, where it is 
loaded on a super-container ship that carries 5,000 to 8,000 
containers for the trans-Pacific voyage.
    The container is then off-loaded in Vancouver, British 
Columbia. It is then loaded directly on to a Canadian Pacific 
railcar, where it is shipped to a rail yard in Chicago. Because 
the dirty bomb is shielded in lead, the radiation portals 
currently deployed along the U.S.-Canadian border do not detect 
it. When the container reaches its distribution center in the 
Chicago area, a triggering device attached to the door sets the 
bomb off.
    Now, this scenario remains as realistic today as it was in 
2006, because it exploits a longstanding vulnerability of the 
global supply system that still remains unaddressed: The 
ability of smugglers to potentially target a containerized 
shipment while it is being transported by a local truck from 
the factory or logistics center where it originates to the port 
where it's loaded aboard a vessel.
    Now, once a truck leaves a factory, as a practical matter 
there are few controls in place for preventing a shipment from 
being diverted before it arrives at a port, particularly if the 
driver has been recruited, bribed, or intimidated into 
cooperating with a terrorist group intent on placing a dirty 
bomb into the container.
    The container doors are typically ``secured'' with a 
numbered bolt seal that can be purchased in volume for about 
$1.50. But even if the bolt seal is left in place, as my 
scenario laid out, the door hinges can be removed or the 
container's relatively thin-metal skin can be breached so they 
can put the bomb in the box.
    Now, I speculated that the hypothetical terrorist group 
would purposely target a container from a known shipper. I did 
this for two reasons. First, it can count on the fact that it 
is extremely unlikely that CBP will subject the container to 
any physical security as it originated from a well-established 
company. We have heard about the risk management system. And if 
it has no past record of smuggling, there is virtually no 
chance it will hit anybody's radar screen as a container to be 
checked.
    Such a shipment from a trusted source would be deemed to be 
low-risk and as such not identified for an overseas port-of-
loading inspection or an inspection in Vancouver when it is 
off-loaded to a U.S. bound train.
    Second, by exploiting the container from a known shipper, 
the terrorist group can be confident they can generate the 
maximum amount of fear that all containers previously viewed 
low-risk now be judged as potentially high-risk. Fanned by the 
inevitable sensational media coverage, Governors, mayors, and 
the American people would place no faith in the entire risk 
management regime erected since 9/11.
    I want to emphasize that this is why potentially a 
thoughtful adversary would put a dirty bomb in a box versus in 
a small boat. It is because the goal is not to get the bomb 
into the United States, it is to disrupt the global supply 
chain system by how we would respond in its aftermath. What we 
see here is that if we are suddenly spooked, there is a bomb in 
a bomb or there are other bombs in boxes, we basically would 
freeze the system to sort it out, not just one port closure, 
but almost certainly all port closures.
    Then we have a challenge. We can't check the boxes until 
they are off-loaded, but the only way we can check them is if 
they are off-loaded. This catch-22 translates into ships 
queuing up in Anchorage outside our ports.
    Overseas you can't just basically freeze the system. You 
are not going to send new ships into the U.S. if it is already 
backed up. You can't receive new boxes from trains and trucks. 
So essentially within 10 days to 2 weeks, the entire global 
intermodal transportation system goes into gridlock. The impact 
of that is disruption of our global commerce on a huge scale.
    So what would we do? The real threat essentially is not so 
much the attack or the local harm for the port community, as 
significant as that is likely to be. It is the risk of mass 
disruption to international commerce that would follow from 
such an attack.
    So two steps I outline in my testimony. The U.S. Government 
needs to shift its interests from one that focuses primarily on 
policing U.S.-bound cargo to one that advances the overall 
security resilience of the global supply system at large. There 
is compelling rationale for doing this. Everybody is signed up 
to trying to prevent the proliferation of weapons and materials 
around the planet. Specifically, all countries have signed on 
to U.N. Security Council Resolution 1540 that requires that 
nations take actions to detect and intercept outbound shipments 
of illicit nuclear and radiological materials. We have the 
international rationale. Let's get on with this at a global 
scale.
    Secondly, the U.S. Government really needs to focus on 
enlisting the active participation of private industry that 
owns and operates the port terminals and transportation 
conveyances that move supply chains. They have a rationale to 
do this. This is a significant business continuity enterprise 
resilience imperative. As such, the conventional wisdom that 
security is basically a public sector responsibility is wrong. 
It is primarily a public sector responsibility to work this, 
but the private sector has a critical role to play.
    The foiled October 2010 bomb plot involving explosives 
hidden in printer cartridges shipped from Yemen make the case. 
In the aftermath of that we saw the aircargo industry working 
with U.S. and European authorities to significantly step up the 
scrutiny of aircargo.
    The maritime transportation system, in short, is a highly 
concentrated system with a few large port terminal operators 
and ocean carriers responsible for handling the vast majority 
of global cargo. With support from the U.S. Government and 
other authorities, these companies could potentially take on a 
leadership role for deploying the technologies and tools on a 
global scale by providing a near real-time visibility and 
accountability for contents and location of all cargo.
    What they would need is the means to recover the associated 
costs through a fee-for-service requirement that is borne by 
importers and exporters. The estimated cost of putting 
nonintrusive inspection and terminal operations around the 
world ranges from $3 billion to $5 billion. Given that there 
are millions of containers moving through, we are talking about 
a $10 to $15 per-box cost largely to do this, or less than the 
security surcharge I had from flying from Boston to Washington 
for this hearing today.
    In conclusion, Mr. Chairman, the risk of an adversary 
exploiting the global supply system to import a dirty bomb at a 
U.S. port remains clear and present. The disruption that such 
an attack would generate goes well beyond the local port. It 
would ripple through the entire maritime transportation system. 
It would be disastrous for global trade.
    Accordingly, the stakes for the United States national 
security and economic security could not be higher. There is an 
urgent need to significantly bolster and build upon the many 
post-9/11 initiatives which aim to improve the security of the 
maritime transportation system. In the end, these global 
networks require trust to operate. We have got to work on 
ensuring we can survive that trust in the event of a dirty bomb 
going off in a port.
    Thanks so much.
    Mr. Hunter. Thank you, Doctor.
    And thanks to my colleagues for sticking around too. I am 
just going to ask a quick question and then going to pass it 
off so everybody else can get a question in before we have to 
leave.
    Dr. Canavan, I guess the question is this. If you are going 
to have a nuclear weapon come in, dirty or not, it is going to 
be shielded. If it is not, I would recommend to our enemies 
that they shield it, otherwise it will be easier to see. So I 
would think that some smart people would shield it. Can you 
still see it?
    Mr. Canavan. Yes, sir, good question. I cover that a little 
bit in my testimony. Bombs are not easily shielded from 
inspection by neutrons. As I said, if you keep the neutrons 
fast enough--that is, with high enough energy--they are not 
affected by absorbers. Neutrons can go through a whole ship 
without hardly slowing down.
    The tricky part is what are called moderators, things that 
reduce the energy of the neutrons. If a bomb was packed in a 
bunch of moderator material, carbon or something like that that 
can slow neutrons, enough of it could slow the neutrons down to 
where not enough of them would penetrate into the core to give 
you a good nuclear signature. It is not a precise number, but a 
foot or so of carbon outside the device might effect that sort 
of slowing down.
    But there are two things that you have to consider. One is 
that by the time you have a few feet of carbon on either side 
of the device you block the whole TEU, the container that it is 
in, and that in itself would be a signal that someone had tried 
to hide it. It is not an easy thing to do.
    The other thing is, it is a technical point, but when 
neutrons bounce off of a moderator like carbon they produce a 
spectrum of bands of energy that are easily detectable. The 
spacing of the energy bands are a good indicator of what kind 
of moderator the person is using to try to beat you, and the 
number of those bands tell you how thick the moderator is.
    That is the game that they would play. It is not an easy 
game for the adversary. That is all I can say.
    Mr. Hunter. There is a company that I know of called 
Decision Sciences that actually is able to sense nuclear stuff 
inside of really thick lead, but you have to be in their 
system, meaning that you can't walk around and scan stuff. It 
has got to be within basically one of those drive-through 
systems to do this. And it takes more than just a drive 
through, it takes a couple of seconds.
    Mr. Canavan. Decision Sciences uses muons. They do not 
select nuclear material, just mass. Neutrons go through 
anything. They particularly like to go through steel and lead. 
So ordinary shielding, which is very effective for dirty bombs 
and even uranium in its natural state emitting radiation is not 
very effective against fast neutrons. Somebody has to really, 
really go out of their way with a lot of shielding to try to 
knock the signal down. Sorry.
    Mr. Hunter. But these handheld detectors, they wouldn't 
sense something if it was in carbon or lead. It would take an 
actual scanning system to do that, right? The handheld CBP 
detectors, they are not going to detect stuff if it is in a 
TEU?
    Mr. Canavan. Correct. Handheld detectors are defeated by a 
modest amount of shielding. The trick with neutron detection is 
that you inject a signal which is magnified by the target 
itself to a detectable number of neutrons coming back out. And 
so you are stimulating very gently the fissile material to 
produce a signal that would not be there in the case if you 
didn't stimulate it.
    Mr. Hunter. And the only way to do that is through one of 
these drive-through systems, meaning none of this is going to 
happen by a handheld device that someone is holding walking 
around or a belt device.
    Mr. Canavan. Correct. The spontaneous signal is too weak 
for them to detect.
    Mr. Hunter. All of this only comes, even the best we can 
do, through, like, a drive-through scanning system, right, 
where you can spray it with neutrons and then have that read on 
the other side, which takes a system.
    Mr. Canavan. Neutrons could act in a drive-through, but 
they could also operate in other modes discussed below. There 
is no free lunch. You do have to produce the neutrons, but 
neutrons are not very hard to produce. The trick is knowing 
that you have to both put them where you want them and then 
collect them in a smart way.
    Mr. Hunter. Thank you.
    And I am going to yield, because I am out of time. Mr. 
Garamendi is recognized.
    Mr. Garamendi. Apparently the bottom line on your testimony 
is that a compact fast neutron inspection can work. We are not 
presently deploying those. Is that correct?
    Mr. Canavan. Correct. As I said, we kind of went off on a 
tangent that was not very productive. And it has only been 
sitting around and scratching my head for a long time sort of 
gave me the idea. As Dr. Teller, my old professor, always used 
to tell me, the hardest thing about doing something is 
unlearning what you thought----
    Mr. Garamendi. We are going to move this right along 
because we are out of time.
    Dr. Potter, you seem to think that domestic steps need to 
be taken, cesium chloride specifically?
    Mr. Potter. A National Academy study was done, some years 
ago now, pointing out the need to protect cesium chloride 
sources throughout the United States, yes.
    Mr. Garamendi. So you drew our attention to that issue, and 
presumably we will avoid dealing with that problem.
    Mr. Potter. Uh-huh.
    Mr. Garamendi. Which is not a good solution.
    And finally, Mr. Lawless, it comes down to money, doesn't 
it? Who is going to pay for the detectors, the kind Mr. Canavan 
is talking about, domestically with cesium chloride? How much 
money do you need to put these detectors and to maintain them?
    Mr. Lawless. Well, that is a difficult question to answer. 
I would suggest that the Government fund these research 
projects, like these drive-through portals, that we would see 
that could detect neurons and gamma at the same time. We are 
invested at my particular port working with DNDO and a company 
to develop a state-of-the-art detection system in the Port of 
Boston.
    But there is definitely money needed to fund these 
programs. There has to be clarity on who is paying for these 
systems. They are federally mandated systems. And the ports 
believe that the Federal Government should be paying CBP and 
DNDO to fund these projects.
    Mr. Garamendi. Dr. Flynn is willing to put $10 to $15 on 
each container. I assume you have an opinion on that. Yes? No?
    Mr. Lawless. Yes.
    Mr. Garamendi. All right. And I would just go back to where 
I started this, in that we make choices around here, and we are 
looking to spend $3.5 billion for a missile defense system for 
the east coast to deal with Iran nuclear weapons, which 
presumably aren't going to be available for some decades.
    Thank you, Mr. Chairman. I yield back.
    Mr. Hunter. Thank the gentleman.
    Ms. Hahn is recognized.
    Ms. Hahn. Thank you.
    Dr. Flynn, thank you for being here today. I have followed 
your work and read a lot of what you have written. Again, I 
represent the Port of Los Angeles and I am always very 
concerned. As you said, the Container Security Initiative scans 
less than 1 percent of U.S.-bound cargo. Do you believe that 
scanning at the point of origin is effective, 100 percent 
effective, or should we be investing more in scanning at our 
domestic ports?
    Mr. Flynn. Well, this is an issue where the stakes are so 
high we should be looking at dealing with this across the 
board. So relative to where we put resources, this really ranks 
right up there, I think, given the consequence we laid out. And 
I have spent a good bit of time in the Port of L.A. and Long 
Beach and you really get the sense of scale about what is going 
on here.
    And what the problem would be in this dirty bomb scenario, 
where if we spread all that stuff around how would you work in 
that port, as well as, of course, neighbors who live in San 
Pedro and so forth? This would be a real challenge.
    So in the face of this here there is opportunity at the 
port of loading, even at the largest terminals, to scan cargo. 
Now, what that would do is it should be baked into the terminal 
operations. Just as the radiation portals are here even when 
you leave the terminal, we would like to ideally have that when 
people drive into the terminal. And you can't do it for just 
U.S., you have to do it for everything. And that is where there 
is counterproliferation value to doing this, because most of 
the stuff we worry about proliferation is going not to the 
United States, but is going around. And to the extent that is a 
national security imperative, trying to get visibility into 
what moves through the intermodal transportation system should 
be a key.
    So let's be clear right now with the numbers: 2013, the 
numbers of CBP inspections overseas in the then-58 ports around 
the world was 103,000. If you divide that by 365 days and 58 
ports, we are talking 5 containers per port, per day are being 
examined overseas under the CSI system. OK, it is five a day. 
And if you have been to places like Singapore or Shanghai or 
others, I mean, it may be up a little bit.
    Why is that? It is because the current approach is we are 
going to identify the risk and actually go pluck the box and 
take it to a Government inspection facility. If you bake it 
into the operation of the terminal you would collect this in 
real time. It doesn't mean you have to look at images every 
time. What you would do is would get those and use your risk-
based approach to do it, but you would have a much greater 
degree of confidence about deterring this risk, but also 
ultimately finding things when they go wrong to intercept them, 
or worse case even isolating the incident afterwards so you 
don't shut down the whole system.
    So there is just so much that can be done, should be done, 
that is not being done.
    Ms. Hahn. Thank you. I appreciate the warning. And as you 
commented, which I also did in the first panel, was the threat 
to our global economy is significant, particularly if something 
happened at Long Beach and Los Angeles. We know what that 
impact would have on not just our national economy, but the 
global economy.
    So I was going to ask one more, Dr. Canavan. I mean, I 
think the biggest issue that everyone tells me why we can't 
have 100 percent scanning is that in some way that would 
impede, slow down commerce and we just can't afford that. And 
by the way, I do have a bill that would provide grants to two 
ports in this country that would voluntarily decide to 
implement 100 percent scanning with the technology that we have 
available, just to I sort of want to prove everybody wrong, 
that actually we can do this and not impede commerce in a way 
that would really impact the economy.
    But, Dr. Canavan, is there technology, of that that you 
spoke about, which one of those technologies could work and 
also not impede commerce?
    Mr. Canavan. Well, there are two--there is one technology I 
talk about and that is interrogation with neutrons. I think it 
would fill the requirements that you are setting down there. 
There are these big cranes that move containers around. I would 
like to put a little source on one leg of the crane and the 
detector on the other, so while it is moving them around there 
would be plenty of time to inspect them. It does its inspection 
in seconds or milliseconds. It is very fast.
    The other approach would be to mount the source and 
detector on the bulkheads of the ship, sort of one per 
canister, so that you could keep track of what happens to that 
canister the whole time it is out at sea.
    I think you could do that, but I haven't proved it, ma'am. 
I have tried to show that the physics is OK.
    Ms. Hahn. Thank you very much.
    Mr. Hunter. Ms. Brownley is recognized.
    Ms. Brownley. Thank you, Mr. Chairman.
    And, Dr. Flynn, your points and your testimony I think were 
well taken, that it is not an attack just on U.S. soil, but an 
attack on trade and interrupting goods movement in our country.
    And I am just wondering if you have very specific 
recommendations for how individual ports and the businesses 
within those ports can really prepare for--or prepare for a 
contingency plan in the event that we did have an attack, and 
also specific recommendations for governmental agencies and 
what they should be doing for contingency as well.
    Mr. Flynn. I mean, I really applaud the question and the 
focus, because unless we assume that this is a zero chance that 
this will happen that we will have a nuclear event, we should 
have a plan. That is something we can do. It is not a huge cost 
issue. It is a heavy coordination issue and a collaboration 
issue.
    The core challenge is that, as I also laid out in my 
testimony, this is a global system sort of running on steroids. 
And so if you disrupt it at any point, increasingly it cascades 
across the system. So it is a lot of choreography.
    Right now the U.S. Government has no plan for how to deal 
with this beyond the U.S. borders. There is a global strategy 
the President put out. I think it is the world's thinnest 
strategy, it is four and a half pages. It basically says we 
should have a plan, but nobody actually has executed on that.
    And thinking through that, so some specifics. Clearly it is 
raising the awareness about what this event would look like and 
then mechanics about, OK, how do we deal with the immediacy of 
the dirty bomb? What is safe? I mean, this is something a 
community can't solve because the U.S. Government has to set 
what standards are for safety in terms of putting people back 
into that community.
    But the coordination is really heavily between the industry 
that runs the system and the port authorities and the local 
authorities and the governmental authorities who manage the 
system. There we have very limited visibility about how it 
works. And what makes this, I think, a unique and challenging 
issue for critical infrastructure, the maritime transportation 
system, is that 90-plus percent of it is internationally owned, 
it is not U.S.-owned, and we have to coordinate therefore with 
those key players.
    But the opportunity is, it is a concentrated industry. 
There are roughly five terminal operators that move about 80 
percent of all the goods to the United States. They are in 
ports all over the world. You don't have to go to 180 nations, 
you go to 5 companies. There are basically 20 ocean carriers 
that matter. You can work with 20 CEOs.
    What we have been doing is looking at this as a Government-
to-Government issue or local government issue when it really is 
an international private system that we have to have a 
capability.
    In our financial meltdown in 2008 we had central bankers 
who could manage the morning after. It was messy, but we had a 
system. We have no such system for managing a major disruptive 
event, and that is something that I think transcends anything 
that these agencies who are here this morning their job is to 
do, but it is a high order national security and economic 
security issue for us to wrestle with.
    Ms. Brownley. And you had mentioned that we should be 
listening to industry and businesses clearly in terms of what 
they believe are the right--what is the right direction and the 
right plans for contingency. And do you have any idea what 
they, I guess, would suggest? I mean, in the earlier testimony 
they said if we had an incident we would just--industry would 
just respond and that would be the contingency plan.
    Mr. Flynn. Well, I have worked closely on that and I have 
talked to the CEOs of the largest terminal operators. If there 
is a plan, they are willing to engage on the plan. This is a 
business continuity issue for them. If there is a cost-recovery 
mechanism for deploying equipment, they are willing to do that.
    I had two colleagues and I that work out of the Wharton 
School looking at two choices, the one we have right now where 
we would select a box out of a container and send it to be 
inspected at very small percentages or one where you scan all 
of them. The terminal operator we worked with said, ``It is 
easier for me to scan them all then for you to come into my 
yard, packed six high, and grab two to get the one and take it 
around.''
    So in some places it turns out doing more is easier. The 
economics work better. OK? And in other places, in sleepier, 
slower places, you are probably not going to have that same 
level of buy-in and then you probably use a different approach. 
I mean, there is not going to be a one-size-fits-all. But when 
you have a conversation with industry it comes out a lot 
different than maybe the one you have when you do a Government-
to-Government one.
    And here it is an engineering problem, it is an operational 
problem with some technical complexity. But it is not 
insoluble. We should not be throwing our hands up in the air 
and going let's just hope it never happens. Shame on us when it 
does happen.
    Ms. Brownley. Thank you very much.
    And I will yield back, Mr. Chairman.
    Mr. Hunter. I thank the gentlelady.
    We have run out of Members. By the way, this was not a bad 
showing for today. Usually it is just me and John sitting here. 
So at least we had some people.
    But thank you very much for what you all do for the country 
and for industry and thanks for being here.
    With that, the hearing is adjourned.
    [Whereupon, at 12:28 p.m., the subcommittee was adjourned.]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                [all]
                                
                                
    
   
</pre></body></html>
